<html>
<title> - MODERNIZING THE SUPERFUND CLEANUP PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               MODERNIZING THE SUPERFUND CLEANUP PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 18, 2018

                               __________

                           Serial No. 115-92
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-746                      WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f283f200f2c3a3c3b272a233f612c202261">[email&#160;protected]</a>                         
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, CaliforniaL RUIZ, 
RICHARD HUDSON, North Carolina           California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

<RAU>
                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................   119

                               Witnesses

Barry Breen, Principal Deputy Assistant Administrator of the 
  Office of Land and Emergency Management, U.S. Environmental 
  Protection Agency..............................................     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................   142
Steve Cobb, Chief, Land Division, Alabama Department of 
  Environmental Management, on behalf of the Association of State 
  And Territorial Solid Waste Management Officials...............    42
    Prepared statement \1\.......................................  1046
    Answers to submitted questions...............................   154
J. Winston Porter, Environmental and Energy Consultant...........    59
    Prepared statement...........................................    62
    Answers to submitted questions...............................   164
James McKenna, Portland Harbor Policy Analyst, Governor Brown's 
  Natural Resources Office.......................................    69
    Prepared statement...........................................    71
    Answers to submitted questions...............................   166
Debbie Mans, Executive Director and Baykeeper, NY/NJ Baykeeper...    81
    Prepared statement...........................................    83
Katherine Probst, Independent Consultant.........................    92
    Prepared statement \2\.......................................    94

                           Submitted Material

Office of Solid Waste and Emergency Response Climate Change 
  Adaptation Implementation Plan, June 2014, submitted by Mr. 
  McNerney.......................................................   121

----------
\1\ The attachments to Mr. Cobb's statement can be found at: 
  https://docs.house.gov/meetings/if/if18/20180118/106783/hhrg-
  115-if18-wstate-cobbs-20180118.pdf.
\2\ The attachments to Ms. Probst's statement can be found at: 
  https://docs.house.gov/meetings/if/if18/20180118/106783/hhrg-
  115-if18-wstate-probstk-20180118.pdf.

 
               MODERNIZING THE SUPERFUND CLEANUP PROGRAM

                              ----------                              


                       THURSDAY, JANUARY 18, 2018

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Blackburn, Harper, Olson, Johnson, Flores, Hudson, Walberg, 
Carter, Tonko, Ruiz, Green, DeGette, McNerney, Cardenas, 
Dingell, and Pallone (ex officio).
    Staff present: Allie Bury, Legislative Clerk, Energy/
Environment; Jordan Haverly, Policy Coordinator, Environment; 
A.T. Johnston, Senior Policy Advisor, Energy; Mary Martin, 
Deputy Chief Counsel, Energy & Environment; Katie McKeogh, 
Press Assistant; Tina Richards, Counsel, Environment; Dan 
Schneider, Press Secretary; Jennifer Sherman, Press Secretary; 
Andy Zach, Senior Professional Staff Member, Environment; Jeff 
Carroll, Minority Staff Director; Jacqueline Cohen, Minority 
Chief Environment Counsel; Jean Fruci, Minority Energy and 
Environment Policy Advisor; Evan Gilbert, Minority Press 
Assistant; Tiffany Guarascio, Minority Deputy Staff Director 
and Chief Health Advisor; Rick Kessler, Minority Senior Advisor 
and Staff Director, Energy and Environment; Alexander Ratner, 
Minority Policy Analyst; Tuley Wright, Minority Energy and 
Environment Policy Advisor; C.J. Young, Minority Press 
Secretary; and Catherine Zander, Minority Environment Fellow.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. The subcommittee will now come to order. Thank 
you for closing the door. The chair recognizes himself for 5 
minutes.
    Today, we continue the subcommittee's oversight of the 
Superfund cleanup program and we initiate a discussion with the 
EPA and other stakeholders about ways to modernize the program 
to make sure that the Superfund sites around the country are 
getting cleaned up and returned to productive use in the most 
efficient and effective manner.
    The Comprehensive Environmental Response, Compensation, and 
Liability Act, commonly referred to as CERCLA, also known as 
``Superfund,'' was signed into law on December 11th, 1980. The 
National Priorities List came into existence in 1983 and it is 
the prioritization of sites with known releases or threatened 
releases of hazardous substances throughout the United States. 
As of November 2017, there were over 1,300 sites on the 
National Priorities List and many of the sites have been on the 
list for more than 20 years. The process of evaluating 
contamination at the site and determining the appropriate 
remedy can take years or even decades, which delays the cleanup 
of the site and prevents the area from being returned to 
productive use, which is why today's hearing is so important.
    We applaud Administrator Pruitt for making Superfund 
cleanup a priority because he correctly noted that cleanups 
take too long to start and too long to complete. To improve the 
efficiency and efficacy of the Superfund program, EPA developed 
an extensive list of recommendations to restructure the cleanup 
process and make sure that responsible parties and other 
stakeholders are fully engaged in the process. I would like to 
welcome Mr. Breen, the principal deputy assistant administrator 
for the Office of Land and Emergency Management, who will 
hopefully be able to share with us information about the 
efforts undertaken by the Agency to expedite cleanups and 
reinvigorate redevelopment. We hope that today will be a start 
of a productive dialogue about the Superfund cleanup program 
and how we can all work together to make sure that the program 
results in timely and efficient cleanups.
    When CERCLA was enacted, very few states had their own 
cleanup programs, whereas today all states have robust and 
successful programs. We need to assess whether states should 
have a more significant role in CERCLA cleanups and whether 
there are cleanups that are best handled entirely by the 
states. Furthermore, there is a lot of process involved in 
CERCLA cleanups. We need to take a serious look at whether the 
process is working or whether it encourages or impedes 
cleanups.
    To help us with this analysis, we welcome our second panel. 
We welcome back Mr. Cobb from the State of Alabama, who is here 
on behalf of a good friend of the subcommittee, ASTSWMO. Mr. 
Cobb is the head of the Land Division in Alabama and will 
hopefully talk to us about how far states have come with 
developing cleanup programs and whether the current role for 
states in CERCLA cleanups is appropriate. We also welcome Mr. 
Porter, who is former head of the EPA's Office of Solid Waste 
and Emergency Response. Mr. Porter has been in the trenches at 
EPA with respect to CERCLA cleanups and hopefully he can share 
with us his ideas and suggestions for making the program work 
better. We also have with us today Jim McKenna, who comes from 
us from Governor Brown's office in Oregon, who I personally met 
on my trip to that Superfund site with our colleague a couple 
months ago. Mr. McKenna has over 30 years of experience working 
with the Superfund cleanup program and we welcome his 
suggestions for modernizing the program both in the state and 
responsible party perspective. And last but not least, we will 
hear from Katherine Probst, who truthfully wrote a detailed 
report on how to improve the Superfund program, and Ms. Mans, 
who is part of the Community Advisory Group for the Passaic 
River--I should know that--Superfund site in New Jersey, which 
was listed on the National Priorities List in 1984. So, 
hopefully, she will have some productive suggestions for us how 
to make the program work better.
    So, we welcome everyone. Mr. Carter, do you want to take my 
last minute to do your introduction?
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    The Subcommittee will now come to order. The Chair 
recognizes himself for 5 minutes.
    Today we continue the Subcommittee's oversight of the 
Superfund cleanup program and we initiate a discussion with EPA 
and other stakeholders about ways to modernize the program to 
make sure that Superfund sites around the country are getting 
cleaned up and returned to productive use in the most efficient 
and effective manner possible.
    The Comprehensive Environmental Response, Compensation, and 
Liability Act or CERCLA also known as `Superfund' was signed 
into law on December 11, 1980. The National Priorities List 
came into existence in 1983 and it is the prioritization of 
sites with known releases or threatened releases of hazardous 
substances throughout the United States. As of November 2017, 
there were over 1,300 sites on the NPL and many of the sites 
have been on the list for more than 20 years. The process of 
evaluating contamination at a site and determining the 
appropriate remedy can take years or even decades which delays 
the cleanup of the site and prevents the area from being 
returned to productive use--which is why today's hearing is so 
important.
    We applaud Administrator Pruitt for making Superfund 
cleanups a priority because he correctly noted that cleanups 
take too long to start and too long to complete. To improve the 
efficiency and efficacy of the Superfund program, EPA developed 
an extensive list of recommendations to restructure the cleanup 
process and make sure that responsible parties and other 
stakeholders are fully engaged in the process. I would like to 
welcome Mr. Breen, the Principal Deputy Assistant Administrator 
for the Office of Land and Emergency Management who will 
hopefully be able to share with us information about the 
efforts undertaken by the Agency to expedite cleanups and 
reinvigorate redevelopment. We hope that today will be the 
start of a productive dialogue about the Superfund cleanup 
program and how we can all work together to make sure that the 
program results in timely and efficient cleanups.
    When CERCLA was enacted, very few states had their own 
cleanup programs. Whereas, today all states have robust and 
successful programs. We need to assess whether States should 
have a more significant role in CERCLA cleanups and whether 
there are cleanups that are best handled entirely by the 
States. Furthermore, there is a lot of process involved with 
CERCLA cleanups. We need to take a serious look at whether that 
process is working and whether it encourages or impedes 
cleanups.
    To help us with this analysis, we welcome our second panel. 
We welcome back Mr. Cobb from the State of Alabama who is here 
on behalf of a good friend of the Subcommittee, ASTSWMO. Mr. 
Cobb is the head of the land division in Alabama and he will 
hopefully talk to us about how far states have come with 
developing cleanup programs and whether the current role for 
states in CERCLA cleanups is appropriate. We also welcome Mr. 
Porter, who is the former head of EPA's Office of Solid Waste 
and Emergency Response. Mr. Porter has been in the trenches at 
EPA with respect to CERCLA cleanups and hopefully he can share 
with us his ideas and suggestions for making the program work 
better. We also have with us today, Jim McKenna who comes to us 
from Governor Brown's office in Oregon. Mr. McKenna has over 30 
years of experience working with the superfund cleanup program 
and we welcome his suggestions for modernizing the program both 
from the State and responsible party perspective. And last, but 
not least, we will hear from Katherine Probst who recently 
wrote a detailed report on how to improve the Superfund program 
and Ms. Mans who is part of the Community Advisory Group for 
the Passaic River Superfund Site in New Jersey which was listed 
on the National Priorities List in 1984 so hopefully she will 
have some productive suggestions for us on how to make the 
program work better. So, welcome everyone.

    Mr. Carter. Thank you, Mr. Chairman.
    I just wanted to recognize that you've already mentioned 
Dr. Winston Porter, who is here. He happens to reside in my 
district and I appreciate him being here very much.
    He's very familiar with the four Superfund sites that we 
have in our district and we appreciate that. As you mentioned, 
Mr. Chairman, he was the EPA's assistant administrator with 
national responsibility for the Superfund program. We are very 
pleased to have him here and appreciate his expertise and him 
sharing it with us.
    Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back to me and I yield 
back my time.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko from New York, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and thank you for holding 
this hearing on modernizing EPA's Superfund program.
    And thank you, Mr. Breen, for being here. Appreciate you 
being here. However, I am disappointed that Albert Kelly, who 
led the Superfund task force, is not with us.
    It is critical that we hear from the Agency's political 
leadership on this and other important issues. In 1980, 
Congress passed the Comprehensive Environmental Response 
Compensation and Liability Act, which is more commonly known as 
Superfund.
    Superfund is critical to protecting Americans' health and 
the environment. It is estimated that over 50 million Americans 
live within 3 miles of a Superfund site. Today, there are over 
1,300 sites listed on the National Priorities List. These 
represent many of the most contaminated sites in our country. 
There is no question that remediation of these sites is 
complex. There are many reasons why cleanups are slow and often 
delayed, and I believe many members would be interested in 
examining what changes are needed to the program to ensure that 
it operates more effectively, moving forward.
    But we cannot discount the importance of funding and the 
need for robust engagement with stakeholders and the people 
that live near these sites. Administrator Pruitt has said 
remediating these sites is a top priority. However, the 
president's fiscal year 2018 budget request proposed a 30 
percent cut to the program. The EPA has also proposed 
eliminating financial support for the Justice Department's 
Environment and Natural Resources Division. EPA provides this 
office with 27 percent of its budget which is used to support 
Superfund efforts.
    Superfund has always been based on the principle of the 
polluters pay. Responsible parties should foot the bill to 
clean up contaminated sites, not our taxpayers. But it is 
critical that EPA has the resources to hold responsible parties 
accountable as well as ensure remediation of ``orphaned'' 
sites.
    Similarly, Superfund can only succeed with public buy-in. 
Rushing to delete sites without engaging stakeholders or 
failing to alleviate their concerns that a site is not 
adequately remediated will undermine the integrity of the 
program as well as its ability to complete meaningful cleanups.
    As we will hear this morning, Administrator Pruitt has 
taken actions related to Superfund. In July, the Superfund task 
force released its report with 42 recommendations and last 
month the EPA published a list of 21 sites targeted for 
immediate intense action.
    I have questions and concerns about how these 
recommendations and priorities have been developed. These cases 
are yet additional data points in an unacceptable pattern of 
behavior.
    This administration's aversion to transparency and public 
influence is well noted. In the case of the targeted list, the 
task force's own recommendation was not even closely followed. 
As far as I am aware, there was no method released publicly for 
determining site selection and it seems to me that sites where 
human exposure is not under control were not sufficiently 
prioritized.
    It appears that many of these sites do not have much in 
common with one another. According to the questions and answers 
document on EPA's website, they were at least partially chosen 
because they have upcoming critical milestones and intent is to 
have sites added and removed from this list, going forward. I 
am not convinced that cycling sites through a meaningless list 
and churning out press releases celebrating milestones are 
going to result in these sites being cleaned up more quickly. 
So far, this list has only raised more questions and caused 
confusion with stakeholders. As always with Superfund, members 
will have questions about sites of great interest to them.
    For the people of my district, that means the Hudson River. 
I am very concerned about the status of the site. EPA's draft 
second 5-year review concluded that today the upper Hudson 
fails to meet the minimum standard for Superfund cleanup, 
protection of human health, and the environment. The draft 
review concluded that EPA expects the site to be protected at 
some point in the very distant future, 55 years or more, 
although that assumption seems tenuous.
    The U.S. Fish & Wildlife Service, the National Oceanic and 
Atmospheric Administration, and New York State have all 
challenged EPA's timeline for achieving the remediation goals 
and the adequacy of the cleanup.
    The communities I represent have already waited a lifetime 
to see this river and its rich heritage restored. They should 
not have to wait another 5 or 6 decades as a best-case 
scenario.
    The Federal Government has a responsibility to ensure that 
the Hudson River is indeed protected. So, I encourage EPA to 
reevaluate the draft review.
    Finally, I want to emphasize that rolling back 
environmental protections and reducing enforcement actions will 
ensure that we continue to add sites to the National Priorities 
List in the future. I hope we can consider Superfund's role in 
the context of the Agency's broader plan to protect human 
health and the environment.
    And with that, Mr. Chair, I yield back.
    Mr. Shimkus. The gentleman yields back his time. As the 
chair waits for the chairman of the full committee, I would 
like to turn to the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, for calling this 
hearing on the Superfund program, which is a critical public 
health program that's made an enormous difference in my state 
and nationwide.
    It is essential that this committee conduct oversight of 
the controversial and, frankly, confounding implementation 
decisions being made by President Trump, Administrator Pruitt, 
and the rest of the political leadership at EPA.
    In the past month, this administration has published not 
one but two new lists of Superfund sites with no public process 
and no clear explanation of how sites were chosen or will be 
impacted and neither of these lists focuses on the riskiest 
sites, calling into question this administration's commitment 
to cleaning up the most toxic sites poisoning communities 
around this country.
    Unfortunately, we do not have anyone from EPA's political 
leadership here today to answer our questions and, Mr. 
Chairman, this administration has gone to extraordinary lengths 
to avoid transparency with the public and with Congress and I 
repeatedly raised these concerns with you and Chairman Walden 
and I have to raise them again today.
    EPA did not send a single witness to testify before this 
committee until November. Last month, Administrator Pruitt 
appeared for the first time, a full 10 months after taking 
office, and at that hearing he pledged to provide witnesses for 
future hearings and to respond to our oversight request.
    Well, over a month has passed since he appeared, and we 
have received no additional responses to our oversight 
requests, and despite the promise of Albert Kelly testifying 
today, we are now told he had to back out because of 
unavoidable conflicts. Now, strangely, these conflicts appeared 
very recently, despite EPA being apprised of this hearing some 
2 months ago.
    Mr. Chairman, I believe Mr. Kelly's unavoidable conflicts 
have nothing to do with scheduling and everything to do with 
his troubling financial ties. Mr. Kelly owes this committee and 
the public a thorough explanation of his past misdeeds, an 
explanation that EPA's career staff cannot provide.
    Public office is a public trust and that's especially true 
for the Superfund program--billions of dollars moved to the 
Superfund trust fund and the Superfund special accounts, money 
that can mean the difference between a toxic environment and a 
safe one for communities around the country. And Mr. Kelly, who 
Administrator Pruitt pledged in charge of these funds or 
placed, I should say, in charge of these funds, was just this 
past year banned for life from working in any federally-insured 
bank or financial institution. He was banned for life because 
of his unfitness to serve and his willful or continuing 
disregard for the safety and soundness of the bank for which he 
worked.
    Is that really the type of person we should trust to run 
the Superfund program? In September, I wrote to EPA to ask for 
an explanation and, of course, like so many other inquiries 
made to this EPA there has been no response. When we first 
learned that Mr. Kelly would skip this hearing, we urged you to 
postpone for good cause. Mr. Kelly appears to be running the 
Superfund program singlehandedly and generating no records. 
He's the only one who can answer questions about the decision 
he has made. This hearing should have been postponed until he 
was available. That didn't happen so now we should schedule 
another hearing and the committee should use all of its 
available tools to ensure that Mr. Kelly appears.
    All I am saying is that we must hold this administration 
accountable but that's not happening with this Republican 
majority. Cleaning up toxic Superfund sites protects human 
health and the environment. We must move past the press 
releases to protect the Superfund program and all the essential 
laws that the EPA implements. And I just hope in this new year 
we can move forward together in our oversight efforts. I just 
think this program is too important, Mr. Chairman. The EPA is 
too important. We can't accept this administration's lack of 
transparency and we can't accept the appointment of people who 
do not deserve, in my opinion, the public's trust.
    And I yield back, unless someone else wants some of my 
time. But I don't think so. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    The chair is looking for the chairman, who has not arrived. 
Anyone else--majority?
    The chair recognizes the gentlelady from Tennessee for 5 
minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you. Thank you, Mr. Chairman.
    I want to applaud the EPA's back to basics approach and 
Administrator Pruitt's commitment to focus on the Agency's core 
mission. I think these are steps in the right direction and to 
stay within the bounds of constitutional law and to cut 
unnecessary bureaucracy. And I will tell you, in Tennessee my 
constituents talk about the work that's being done to cut 
regulation and bureaucracy. They like these steps.
    Now, in Tennessee there are 28 Superfund sites. Four are on 
the National Priorities List and they are in my district. So, 
this is something that we focus on. You need to clean up these 
contaminated sites. There is no question about it and I will 
tell you, I have questions about the amount of process and the 
foot dragging that is involved in cleaning up these sites under 
CERCLA.
    Bids for these sites should not be taking 15 or 20 years. 
That would be commons sense. We know that process has to speed 
up.
    Administrator Pruitt has said a couple of things. Back last 
June at an appropriations hearing he made a comment, ``It's 
more about decision making, leadership, and management than 
money.''
    I agree with him on that. As I said, it ought not to take 
15 or 20 years. At our oversight hearing in December he said, 
``Most of it is a lack of direction on how we should clean 
up.''
    So, these are solvable problems. Communities want to see 
these sites cleaned up. They want to see the problem solved. 
So, we all know it is possible to do more with less. The 
private sector does this every single day and it is time for 
government to start to do more with less and to do it in a more 
timely fashion and time efficient manner.
    Let us be responsible to the states, to the communities, 
and to the parties that are involved in this process and let's 
speed this up and get these cleanup efforts in gear.
    And I will yield, Mr. Chairman, to whomever would like the 
time or yield it back.
    Mr. Shimkus. It looks like you could yield it back and we'd 
be great.
    Mrs. Blackburn. I yield back.
    Mr. Shimkus. Gentlelady yields back her time and we 
appreciate that.
    All time having expired, the chair now recognizes the first 
panel.
    Mr. Barry Breen, Principal Deputy Assistant Administrator 
for the Office of Land and Emergency Management, U.S. 
Environmental Protection Agency--before the hearing, he and I 
spoke. We both served in the Army at the same time.
    So, thank you for your service and you're recognized for 5 
minutes.

     STATEMENT OF BARRY BREEN, PRINCIPAL DEPUTY ASSISTANT 
 ADMINISTRATOR OF THE OFFICE OF LAND AND EMERGENCY MANAGEMENT, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Breen. Thank you, Mr. Shimkus, and thank you, Ranking 
Member Tonko and Ranking Member Pallone. Thank you, all the 
members of the subcommittee. We are grateful to be here and to 
answer your questions.
    The Superfund program is a premier example of how we can 
both protect the environment and pursue economic development at 
the same time. The importance of Superfund to human health is 
highlighted in recent academic research by faculty at Princeton 
University, University of Chicago, and the University of 
California at Berkeley.
    Superfund cleanups reduce the incidents of congenital 
abnormalities, birth defects in infants, by as much as 25 
percent for families living within 2,000 meters of a site.
    At the same time, Superfund is important to economic 
development. Faculty at Duke University and the University of 
Pittsburgh found that increased residential property values 
within three miles of Superfund sites go up between 18 and 24 
percent when the sites are cleaned up and deleted from the NPL.
    Superfund responds to both short-term emergencies and long-
term remedial action needs. Each year about 30,000 calls come 
into the national response center and many of these are best 
handled by state and local responders. But EPA works with our 
Coast Guard partners in responding to roughly 150 to 200 of 
these releases each year.
    EPA has a 24-hour response capability and for the last 11 
years EPA completed or oversaw 3,600 and some response actions. 
At the same time as those short-term emergencies are being 
dealt with, the Superfund remedial program addresses complex, 
high-priority, long-term cleanups. They reflect both legacy 
practices from decades ago and more recent contamination as 
well.
    Through 2017, EPA and our partners completed final remedial 
assessments at more than 51,000 potentially contaminated sites. 
But at the same time much has been done, there's much left to 
do and we've taken several steps to further improve and 
expedite the process of site remediation.
    The administrator established a Superfund task force to 
provide recommendations on an expedited time frame. The task 
force report provides 42 recommendations and we adopted it in 
July. We included a list, as Mr. Tonko mentioned, of the 21 
sites for immediate and intense attention. In developing the 
list, we considered sites that would benefit from the 
administrator's direct engagement and have identifiable actions 
to protect human health and the environment. We wanted to spur 
action at sites where opportunities exist to act quickly. Sites 
will move on and off the list as appropriate.
    We also recently released an initial list of Superfund 
sites with the greatest expected redevelopment and potential 
for commercial development. These are where we think there's 
been previous outside interest, access to transportation 
corridors, land values, and similar development drivers. It's 
not a complete list of everything with redevelopment potential 
and we hope sites will move on and off the list as appropriate.
    And we are addressing risk at all Superfund sites, not just 
of those on the list. The administrator's expectation is a 
renewed focus on accelerating work in progress at all sites 
nationwide.
    We appreciate your interest in our program. Protecting 
human health and the environment by enhancing ongoing cleanup 
and reuse remains one of EPA's top priorities.
    Such efforts will always be undertaken in partnership with 
other federal departments and agencies, states, tribes, and 
local communities in a manner that protects human health and 
the environment and seeks economic development as well.
    Thank you very much, and I will look forward to your 
questions.
    [The prepared statement of Mr. Breen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. I thank the gentleman and now we'll turn to 
the round of questions and I will start with--recognize myself 
5 minutes for the first--for the first member to speak.
    First of all, welcome. We are glad to have you here and, 
just to put this in perspective, a long-time career 
professional employee from the EPA. We appreciate your service, 
and that gives us a pretty good insight into--you have seen a 
lot over the years.
    So, I want to thank Administrator Pruitt and the EPA for 
making the Superfund cleanup program a priority. If we don't 
have a Superfund site in our district we have one close enough 
and we've been bedeviled by this process, as you all have been, 
for decades and that's a frustration that you will hear from 
members who have been on the committee for a long time just how 
long this takes, the cost it takes, the parties involved and 
those issues.
    Would you please walk us through what you view as the most 
important issues that need to be addressed to make the program 
more effective and more efficient?
    Mr. Breen. Thank you.
    In fact, we asked ourselves those questions when we put 
together the task force over the summer and developed the 42 
recommendations.
    The way the recommendations were developed was by asking 
senior career staff, for the most part, what we should do and 
we all listened as well to outside input.
    But in the end, it was the task force that put the 
recommendations together and provided it to the administrator 
in June on about the 30-day timeline he'd asked for.
    Then there was interaction with the administrator and then 
we came out with the report as reflected in July. So, I would 
have to say what we would reflect back are what's in the task 
force report.
    For one thing, it's looking for hindrances that can be 
moved aside. Things were put in place for a reason at one time, 
but that time may well have passed.
    We want to focus on demonstrable outcomes like construction 
completion, getting site wide ready for anticipated use. We 
want sites deleted when they can be safely. We want to get the 
work done.
    So I would turn us to those 42 recommendations as what I 
would suggest as the consensus view.
    Mr. Shimkus. Thank you.
    The state cleanup programs when I had the history of the 
Superfund in my opening statement--that's what I was pulling 
out--enacted in 1980, the National Priority List in 1983. There 
are still sites on that list that haven't been remediated, 
which is, again, I think, embarrassing from a national 
government perspective.
    Having said that, what has evolved and what is different is 
state involvement in cleanup and cleanup actions. Would 
cleanups be more efficient if certain Superfund CERCLA 
authorities were delegated to the states?
    Mr. Breen. Thank you.
    So let me start by saying we, at least from our 
perspective, have a very strong relationship with the states 
and we appreciate it, and, in fact, we couldn't accomplish 
nearly enough without that strong relationship.
    We have a baseline already of many sites not being 
addressed on the Superfund National Priorities List because 
states are addressing them under state programs, and in many 
cases we have formal agreements to that end and in other cases 
we have strong working relationships that don't need a formal 
agreement.
    But there are indeed probably thousands of sites that are 
not on the National Priorities List thanks to strong state 
programs. In order for a site to get on the National Priorities 
List, our practice is to ask states for their concurrence 
before putting it on the list and, indeed, many of the 
filtering and screening and site assessment work that leads to 
a site being put on the NPL are actually accomplished by state 
programs. And so, in fact, for one recent year, in 2017, we 
provided $58 million to states in total, both to conduct 
activities on NPL sites and to support state Superfund 
programs.
    Where states are undertaking work on their own, the statute 
already provides that states have the same ability that the EPA 
does to recover cost from polluters. And so Superfund is a 
response statute. It involves men and women working on the 
ground. We'd be ready to talk further about ways we can work 
together. But I wouldn't want to miss the reality that the 
strong working relationship is already making a big difference.
    Mr. Shimkus. In my short time remaining, does the national 
contingency plan need to be updated and modernized to more 
effectively deal with sites that are being cleaned up?
    Mr. Breen. Thank you.
    We recently amended the hazard ranking system to account 
for subsurface intrusion. This is the TEC, typically, or other 
halogenated solvents that can move with the water through the 
ground water and then come up into homes and basements.
    We recently amended the hazard ranking system to address 
that. In terms of other NCP amendments, we'd be open to 
discussion. I know it's not just Superfund but the oil program 
as well in the NCP.
    Mr. Shimkus. I want to thank you, and I will now recognize 
the ranking member of the subcommittee, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Breen, how does the EPA consider concerns from the 
public, from peer agencies, states, and independent scientists 
in its 5-year review determinations?
    Mr. Breen. There is a formal process for doing a 5-year 
review determination and, as you mentioned, with the Hudson 
River we did a draft and put it out for public comment and we 
did extensive interagency coordination on it, and now we are in 
that step with the final.
    It is the case that we are working hard on this, and I 
listened carefully to what you said and I will, naturally, take 
that back and we've had input as well from New York State as 
well as natural resource trustees at the federal level, 
including.
    So we'll take that all back. But we have not yet resolved 
the 5-year review.
    Mr. Tonko. And you will factor all of those concerns that 
the state has shared, and others into its final decision?
    Mr. Breen. Yes, sir.
    Mr. Tonko. I do not believe the site possibly being 
protected 55 years from now is deserving of it being granted a 
current status of being complete and protected.
    I would encourage EPA to take another look at the evidence 
gathered by your counterparts in the New York State government 
and other federal agencies.
    One of the goals of the Superfund task force 
recommendations is to engage partners and stakeholders. So, 
unfortunately, everything we have seen from this administration 
has been contrary to that given goal.
    There has been a shocking lack of transparency in both the 
development of the task force recommendations and the choice of 
21 targeted sites. Given that lack of transparency, it is 
especially problematic that we do not have the Agency's 
political leadership here today to testify.
    Mr. Breen, how were the members of the Superfund task force 
chosen?
    Mr. Breen. For the most part, they are overwhelmingly 
career members of the EPA whose assignments--they are mostly 
senior, very senior members--whose assignments bring them into 
the kind of work that the task force has undertaken.
    There wasn't a formal sort of filter where only some people 
could be on. I was on some of the phone calls and it seemed to 
be a considerable matter of people's work making them the 
natural choice to be on.
    Mr. Tonko. OK. Now, for the next questions I would 
appreciate a yes or no answer.
    Administrator Pruitt noted that stakeholder partners 
contributed to the task force report. Did the task force comply 
with the requirements of the Federal Advisory Committee Act?
    Mr. Breen. To the best of my knowledge, the answer is yes.
    Mr. Tonko. Were task force members announced in the Federal 
Register or at least on the Agency's website?
    Mr. Breen. There is a list posted. I don't think it's on 
the Agency's website but I would have to check on that.
    But I want to be clear, this is an internal group, not an 
external federal advisory committee.
    Mr. Tonko. Right. But, again, were they listed in the 
register?
    Mr. Breen. No, I don't believe so.
    Mr. Tonko. Did the task force hold public meetings?
    Mr. Breen. No.
    Mr. Tonko. Did the task force publish proposed 
recommendations for public comment and other responses to 
public comments?
    Mr. Breen. So I understand you want a yes and no.
    The task force report itself, which we published in July, 
is intending to be a living document and we would be grateful 
for input on it.
    Mr. Tonko. So did they publish proposed recommendations for 
public comment?
    Mr. Breen. Not before July of 2017.
    Mr. Tonko. OK. Did the task force maintain and publish 
records of its meetings and process?
    Mr. Breen. So, again----
    Mr. Tonko. Yes or no on that one.
    Mr. Breen. I understand, sir.
    Again, the task force isn't a freestanding body. It's a 
group of people who work together and----
    Mr. Tonko. Right. But do they maintain and publish records 
of their meetings and process?
     Mr. Breen. We have not published records.
    Mr. Tonko. OK. This is disappointing and, frankly, 
counterproductive.
    Transparency can go a long way to building trust and 
community support for Superfund activities, which is essential 
for effective cleanups.
    Let's move on to the list of 21 targeted sites announced on 
December 8. Again, yes or no answers, please.
    Did EPA develop a formalized methodology for selecting 
sites?
    Mr. Breen. You're asking did EPA acknowledge----
    Mr. Tonko. Did they develop a formalized methodology for 
selecting sites?
    Mr. Breen. We have an objective for what we were looking 
for in the list of sites.
    Mr. Tonko. But no formalized methodology?
    Mr. Breen. Well, I would say there was a methodology. We 
asked the regions for candidates. We understood what that 
objective was, which I can tell you, and then the regions came 
in with sites.
    There was discussion about it and then finally a list was 
given to the administrator.
    Mr. Tonko. OK. Let's move on. Did EPA hold public meetings 
or solicit public recommendations for sites to be included on 
the list?
    Mr. Breen. So a number of times, I have to say, we asked 
people what should be included. But I don't think we held a 
public meeting----
    Mr. Tonko. OK.
    Mr. Breen [continuing]. Specifically on that topic.
    Mr. Tonko. OK. Did EPA publish a proposed list for public 
comment?
    Mr. Breen. No.
    Mr. Tonko. Did EPA confer with stakeholders at sites before 
they were listed including the formal community advisory 
groups?
    Mr. Breen. So we did not ask the regions to formally go out 
to the community advisory groups. But in asking the regions 
what sites to put on the list, regions may usefully have taken 
into account what they thought would be the public----
    Mr. Tonko. All right. Has EPA met with stakeholders at the 
listed sites since they were listed to explain the consequences 
of listing?
    Mr. Breen. I would have to check on that on a site by site 
basis and get back to you.
    Mr. Shimkus. OK. The chair has been very patient. The chair 
now will reclaim the time and yield to the gentleman from West 
Virginia, Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman, and thank you, Mr. 
Breen, for appearing here today.
    I was impressed with how quickly you were able to put 
together these recommendations because apparently the charge 
was put in May and by July they had 42 recommendations. Given 
the work output in Washington, that's a dynamic thing to be 
able to accomplish--42 recommendations in 2 months, to come up 
with it. And I was particularly impressed with one component of 
it. It was I think recommendation 23 and 28 perhaps. Had to do 
with comfort letters.
    Having come from the engineering practice and working on 
some of these Superfund sites and other Brownfield locations, 
owners desperately want to understand whether or not this site 
is clean. And I don't know whether people have been able to 
read yet the recommendations that you had. But one of the 
comfort levels that in the past is pretty illuminating in that 
here it is at the conclusion, a typical comfort level it says 
this letter--this is coming from the EPA--``This letter is 
provided solely for informational purposes.'' An owner is 
trying to find out, or a prospective buyer, is this site clean.
    And so the government gets back to them in a bureaucratic 
fashion by saying this letter is provided solely for 
informational purposes and is not otherwise intended to limit 
or affect the EPA's authority under CERCLA or provide a release 
from CERCLA liability. There is no comfort.
    So I am curious now. How much progress have you made since 
July when this report came out that you might be able to have 
something on a comfort level that actually does give comfort 
and support for someone?
    Mr. Breen. Thanks, Mr. McKinley.
    So we do intend to come out with a quarterly progress 
report starting soon that would have recommendation by 
recommendation--our approach.
    What I would like to do is offer a briefing for you and 
your staff on where we are on that particular recommendation in 
particular without waiting for the quarterly report. We'll get 
back to you with some specifics.
    Mr. McKinley. OK, if you could.
    The other is I am trying to understand the driving factor 
that puts these sites----
    Mr. Breen. Yes.
    Mr. McKinley. Is it bankruptcies? If a company declares 
bankruptcy, it seems to be unclear whether or not they can shed 
their liability in a bankruptcy.
    What causes a site to be transferred from a corporation or 
a business over to the federal government to clean it up? What 
would be an example?
    Mr. Breen. So a site could be on the national Superfund 
priority list with a bankruptcy situation or without--either 
one. Bankruptcy would be an important marker that there are not 
enough assets in the corporation in order for the enforcement 
part of the Superfund program to seek cost recovery.
    Mr. McKinley. But couldn't we go back personally on the 
stockholders or someone? Why has this become a way to shed 
responsibilities of corporations to the Federal Government?
    Mr. Breen. So there are lawyers at the Justice Department 
who do this 12 hours a day. I would probably do best to get you 
one of the environmental bankruptcy lawyers at the Justice 
Department.
    Mr. McKinley. Yes. I would like to hear back from someone 
what would be some suggested legislation that we might be able 
to do to make sure they can't shed this, because we've had 
enough problems around here with corporations shedding their 
pension responsibilities, and I don't like the idea of them 
also shedding their environmental liabilities as well. So----
    Mr. Breen. Thank you.
    Mr. McKinley [continuing]. Is there anything else that--
there was another question. If it's taking 5 years to come up 
with a plan, what can we do from Congress to speed up this 
process--that after we've identified it, why would it take 5 
years to come up with a remedial process when EPA has 
demonstrated that within 2 months they can come up with 42 
suggestions?
    Mr. Breen. So we don't want it to take long either. That's 
why we come to work every day is to get it cleaned up.
    The truth is we don't pick the worst sites. The worst sites 
get--what I mean to say is we pick the worst sites. We didn't 
make them. So they're on our list precisely because they're 
hard and difficult.
    So sometimes to do it right does take time. But we want to 
go faster, too.
    Mr. McKinley. OK. I yield back.
    Mr. Shimkus. Gentleman yields back his time. The chair now 
recognizes the ranking member of the full committee, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Obviously, I wanted to use my time today to ask Albert 
Kelly, the controversial political appointee who's been put in 
charge of the Superfund program, to explain to the American 
people exactly what he did to get barred for life from the 
banking industry.
    But, unfortunately, he backed out, probably because he 
doesn't want to answer these questions, and like my colleague 
from New York, Mr. Tonko, I find this lack of transparency 
unacceptable and I am also concerned that my Republican 
colleagues on the committee continue to enable this lack of 
transparency because they don't insist on his being here or do 
other things to try to get him here.
    So I am going to have to turn to Mr. Breen because he's the 
only witness. Mr. Breen, can you explain to the American people 
what exactly Mr. Kelly did to get barred for life from the 
banking industry?
    Mr. Breen. I understand that Mr. Kelly elected to settle a 
matter with the FDIC. He suggested I pass on to you that he is 
fully willing to discuss this matter.
    Mr. Pallone. Well, I would hope then that, as I said 
before, Mr. Chairman, that we can get him back for another 
hearing--bring him in here to testify because I think he's the 
only one that can really answer the question.
    But I appreciate the fact that he's willing to come back 
and I would hope that that would mean that you would be willing 
to bring him back because, this really is a matter that 
relates, I think, to the long-term solvency of the Superfund 
program.
    Now, since 1983, EPA has relied on the National Priorities 
List to identify and target the Superfund sites that present 
the greatest threat to human health and the environment.
    In December, EPA introduced a new list of sites that would 
be targeted for immediate intense action. That list is not 
based on risk to human health or the environment, meaning that 
some of the most dangerous Superfund sites are not being 
targeted ``for immediate intense action.''
    Then yesterday EPA published yet another new list of sites, 
the sites that EPA believes have the greatest potential for 
redevelopment.
    This list is also not based on risk to human health or the 
environment and suddenly one list has become three, and I think 
the public is understandably confused.
    So, Mr. Breen, am I correct that neither of these new lists 
targets the sites that present the greatest risk to human 
health and the environment?
    Mr. Breen. The answer is yes. I want to thank you, Mr. 
Pallone, for your personal support and interest over the years.
    Mr. Pallone. Well, I appreciate that.
    Isn't the mission of EPA and the Superfund program to 
protect human health and the environment? Isn't that the 
reason?
    Mr. Breen. That's right. So the National Priorities List is 
risk based. These are units within the NPL that we use to say 
these need the administrator's attention and----
    Mr. Pallone. OK.
    Mr. Breen [continuing]. These others are available for 
redevelopment to bring money and jobs to the site even while we 
are addressing risk.
    Mr. Pallone. No, I understand that.
    But we've heard a great deal about how Administrator Pruitt 
is attempting to focus on the core mission of the Agency. So, 
to me, it's kind of alarming to see that these actions seem to 
focus the EPA attention away from the riskier sites.
    Mr. Breen, is EPA still committed to cleaning up the sites 
that pose the greatest risk to human health and the 
environment?
     Mr. Breen. Yes.
    Mr. Pallone. OK. And even if those sites don't appear on 
either of these new lists that's still true?
    Mr. Breen. Yes.
    Mr. Pallone. OK. But, again, it's kind of ridiculous that I 
have to ask you these questions. But EPA's recent actions, in 
my opinion, have called into question whether the Agency is 
still focused on the most dangerous sites.
    I've heard from communities in my district that are 
threatened by these sites and the sites that weren't included 
on the new list and they don't know what it means.
    So does EPA have plans to reach out to those communities to 
reassure them that their cleanups are still a priority even 
though they're not on these new lists?
    Mr. Breen. You have marked for us work we need to do. We 
are not moving away from cleaning up all the sites and, for 
that matter, the riskiest sites get a very high priority.
    Mr. Pallone. All right. You seem to be saying but I am 
going to ask you more specifically--can you say right now to 
reassure these communities that their sites will still get 
funding, still get EPA attention, and still get health 
protective cleanups--that that's the goal?
    Mr. Breen. Yes, sir. The one thing I have to worry about is 
funding, as do you all.
    Mr. Pallone. OK. Well, again, you know, when we talk about 
funding, myself and many Democrats on this committee have, you 
know, introduced legislation to try to reinstitute the trust 
fund and reinstitute, you know, the tax on the oil and chemical 
industry that will provide more funding so we don't have to 
rely on the general revenue.
    But we haven't been able to get the Republicans to do that, 
and I go back to when Newt Gingrich was the Speaker and it 
expired because he didn't want to do it.
    So, again, I am just concerned that many endangered 
communities are being ignored, even as Administrator Pruitt 
declares the Superfund to be his top priority.
    But thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the gentleman from Texas, Mr. Olson, for 5 
minutes.
    Mr. Olson. I thank the chair, and welcome, Mr. Breen.
    As you know, Texas has more than its fair share of 
Superfund sites. One site that is causing the most concern in 
Texas-22, as you mentioned earlier, is the San Jacinto River 
Waste Pits.
    Waste from paper manufacturing has been stored in hardened 
caps at the bottom of the San Jacinto River for about 40 years. 
Hurricane Harvey, bringing down 60 inches of rain in some 
places, overwhelmed those caps and cancer-causing dioxin was 
released. One EPA estimate of the release measured 70,000 
nanograms per kilogram. The cleanup threshold is 30 nanograms 
per kilogram. That's the same chemical in natural forces that 
started the Superfund in Love Canal.
    We'd like to thank you and Mr. Pruitt for committing to 
remove all of that waste--not just recap it but remove it from 
threat. You also mentioned emergency response in your 
testimony. You said that you have to deal with 30,000 release 
notifications each year. Some of those are really important. 
Some not as important.
    My question is, how do you determine when it's appropriate 
for you to step in in an emergency or when should you let that 
go to the states and locals to take care of some contamination?
    Mr. Breen. Thank you.
    There's a very well-practiced protocol for that. The calls 
go to one central place, the National Response Center, which is 
operated by the U.S. Coast Guard.
    They get, as I said, about 30,000 calls a year. It's a 24-
hour line. There are people on duty all the time, and as well 
there are 10 EPA regional emergency operation centers and one 
EPA headquarters emergency operation center. As calls come in, 
the watch officer at the Coast Guard national response center 
is making some on-the-spot decisions about who to tell and, as 
I said, probably 99 percent of the time it's the local fire 
department or the state hazmat unit, and that's as it should 
be.
    These are the people who are closest geographically anyway 
and they know the communities the best. But frequently they ask 
us to come in and then we come in right alongside beside.
    Mr. Olson. Thank you.
    Now, do you have the resources you need to address these 
calls to do what you have to do by law?
    Mr. Breen. There's considerable work sharing between us and 
the states and local governments, and what's really happening 
very often is that professionals are deciding among themselves 
who's closest to the site, who can get there fastest, who's got 
the equipment and the people with advanced degrees to know what 
are the gases being released, what are the constituents going 
into the water.
    Mr. Olson. So it sounds like you're OK. You could probably 
use more but you got what you need right now.
    Mr. Breen. We will work with whatever you give us.
    Mr. Olson. Well, thank you.
    I would like to also talk about responsible parties and how 
we tackle some other sites like the San Jacinto River Waste 
Pits. In that case, we have three class action lawsuits out 
there right now with at least three defendants, none of whom 
were actually involved in the waste storage when it happened.
    And so we are trying to find out the responsible party. Can 
you talk about how we can determine who is the responsible 
party and what's the process for getting them to the table 
earlier rather than later?
    Mr. Breen. I can speak in general terms. Given the 
litigation, I probably ought to be careful not to speak in 
particular terms about this site and this set of potentially 
responsible parties.
    In general terms, Congress sets who is a potentially 
responsible party--present owners and operators, owners and 
operators at the time of disposal, those who arranged for the 
hazardous substance to be put at the site, and those who 
transported it there.
    There's a PRP search typically early in a site's 
development, and while the engineers are doing site evaluation 
and remedial investigations, the enforcement program is seeing 
who could ultimately be brought to the table.
    There are notice general and special notice letters that go 
out. But that's not the end of the story. We continue to look 
for potentially responsible parties.
    Ultimately, we'll pick those who we think both have 
responsibility and the assets to pursue.
    Mr. Olson. Well, thank you. Those are my questions. I would 
like to also congratulate you and Chairman Shimkus because for 
the first time in 15 years you all have beaten my Navy-Army at 
football. Congratulations.
    [Laughter.]
    I yield back.
    Mr. Shimkus. I think we are 2-0 right now.
    So the chair now recognizes the gentleman from California, 
Dr. Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you, Mr. Chairman.
    Since 1980, the Superfund program has cleaned up hazardous 
sites and helped corporations such as landfill operators, 
chemical companies, and manufacturers--hold them accountable 
for polluting communities across the country.
    In May, Administrator Pruitt announced the creation of a 
Superfund task force that would prioritize and streamline 
procedures for remediating more than 1,300 sites.
    While it would be appropriate for this committee to hold 
public hearings on potential updates to the Superfund program 
and how to ensure necessary cleanups are not delayed, 
Administrator Pruitt's unilateral decision to streamline the 
process raises some serious transparency concerns.
    Which procedure specifically is the task force 
streamlining? Meaningful consultation with affected tribes are 
required by Executive Order 13175? The scientific evaluation 
scoring of sites based on the severity of the contamination? 
The prioritization of the most contaminated sites for limited 
federal cleanup funds?
    The American public and this committee are all wondering 
which specific proposals Administrator Pruitt unilaterally 
decided to streamline and I hope today's hearing will shed some 
light.
    Since I came to Congress I have heard horror stories about 
the pollution and contamination of tribal lands or near tribal 
lands that tribes rely on that our government turned a blind 
eye toward for decades.
    Two years ago, I convened a round table discussion to hear 
from tribal leaders across the Nation and learned more about 
the environmental injustices they have dealt with and continue 
to face with federal agencies.
    One tribe in particular, the St. Regis Mohawk in New York, 
raised concerns with the EPA's effectiveness in mitigating the 
impacts of two Superfund sites located directly upstream and 
upwind from where the tribes draw their drinking water. 
Although consulted, the EPA disregarded the St. Regis Mohawk's 
input on the level of remediation required at each site. Later, 
testing revealed elevated levels of pollution in fish from 
nearby water sources that the tribe relies on for their economy 
and their consumption.
    Living in close proximity to environmental hazards yet not 
being meaningfully consulted in the government's mitigation 
planning threatens the health and well-being of tribal members 
who rely on resources like rivers for survival.
    That's why I, along with Ranking Member Pallone, Ranking 
Member Grijalva, and 24 other members of Congress asked the 
Government Accountability Office to prepare an investigative 
report on the adequacy of federal policies that protect tribal 
lands and recommendations for how the policies can be improved.
    GAO has since initiated the study and I look forward to 
seeing the results and identifying how we can improve the way 
our government works with tribal governments, not walk away 
from our responsibility.
    Now is not the time to stop this momentum and push 
environmental injustices back into the shadows. The flagrant 
lack of transparency surrounding the task force selection of 
sites coupled with the failure to uphold any public meetings 
confirms that the task force is a step perhaps in the wrong 
direction.
    We have a duty to ensure that the families living in these 
communities and disproportionately suffering from exposure to 
pollutants emanating from these Superfund sites are being 
meaningfully engaged in the remediation process so that they 
can enjoy a cleaner and safer outdoor environment to work, 
play, and raise their families.
    Mr. Breen, since the last task force failed to generate a 
record of its deliberations, I am troubled by the lack of 
transparency and whether affected communities were meaningfully 
consulted.
    So what specific procedures did the task force follow to 
meaningfully consult with affected tribes and communities 
living near toxic sites during the selection process of the 21 
sites recommended for immediate intense action?
    Mr. Breen. Thank you very much.
    We completely agree that our relations with tribal 
governments are of high importance. This is a government-to-
government relationship and the many cases there are----
    Mr. Ruiz. I have heard that for so many years. But the 
actions speak louder than words, and the actions do not show 
that.
    So what have you actually done to consult with tribes?
    Mr. Breen. I will address that. I just didn't want to let 
it go unsaid.
    Mr. Ruiz. I only have 47 seconds left and it seems like 
you're stalling. So what actions----
    Mr. Breen. I am definitely not stalling.
    Mr. Ruiz [continuing]. Have you done to meaningfully 
implement meaningful consultation with tribes?
    Mr. Breen. Of the 21 sites that we identified for the 
administrator's immediate and intense attention in our data 
system, 8 of the 21 are identified as having Native American 
interest.
    Mr. Ruiz. That's not meaningful consultation. That's what 
I've heard over and over again where they have Native American 
interest or they invite a Native American to a room just to 
check a box. That is not meaningful consultation where you take 
their considerations, their concerns, and actually implement 
with them at the table.
    This is exactly what went wrong with the St. Regis Mohawk 
problem with the contamination of the rivers. They went to a 
meeting. They checked the box. They weren't listened to. 
Nothing was implemented, and now they have a problem.
    I yield back my time.
    Mr. Shimkus. I thank the gentleman. The gentleman yields 
back his time.
    The chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Breen, thank you for being here. Appreciate your 
indulgence with us. I am over here. Hello.
    Mr. Breen. I am sorry. I am looking at----
    Mr. Carter. OK. Thank you. Appreciate it.
    Mr. Breen. I was getting out my right sheet of paper.
    Mr. Carter. That's OK. That's OK.
    Mr. Breen, I was just wondering, in 1996 do you remember 
what you were doing? Were you with the Agency then or----
    Mr. Breen. I was.
    Mr. Carter. You were?
    Mr. Breen. Yes.
    Mr. Carter. OK. That's a long time ago, right? 1996, yes.
    In 1996, the LCP chemical site in Brunswick, Georgia, was 
put on the National Priorities List, in 1996. Twenty years 
later in 2016 a settlement was announced. But we still don't 
have funding. The funding still hasn't materialized.
    Seriously? Dumb it down for me. Tell me what's going on 
here. I mean, seriously.
    Mr. Breen. The reason I was looking for my sheet of paper 
was to get some facts. But on the question of why not funding, 
I don't have that and I will commit to getting you that.
    Mr. Carter. We got a settlement in 2016 and we don't expect 
funding for years to come, and this is something that happened 
in 1996.
    Mr. Breen. Right. I will commit to getting you more 
information on that.
    Mr. Carter. OK, and I appreciate that. I sincerely do.
    Why did it take so long?
    Mr. Breen. I am going to have to just get you more on the 
site in general for that as well.
    I can tell you some things but I can't tell you that.
    Mr. Carter. Let me ask you, just in general why do these 
claims take so long? Is the EPA doing the work or is the DOJ 
doing the work? Who is responsible here?
    Mr. Breen. So I can help with that. So the remedy selection 
and the remedy design and the construction is an EPA 
responsibility. Often, we are doing it with the state, but it 
is an EPA responsibility.
    Pursuing the potentially responsible parties is a Justice 
Department lead in courtroom matters, always with an EPA strong 
participation.
    Mr. Carter. So the EPA does have a say in these 
settlements.
    Mr. Breen. Yes.
    Mr. Carter. In these type of settlements, they have a say 
and they're divided up and they provide direction on funds 
outside of the direct remediation. EPA has that authority and 
has that ability.
    Mr. Breen. Yes.
    Mr. Carter. So is the EPA able to usher these claims along?
    Mr. Breen. Which claims?
    Mr. Carter. These claims, such as this, with the one that I 
am stating here with the LPC chemical site in Brunswick?
    Mr. Breen. Sure. So where there's a potentially responsible 
party, EPA would be doing the site investigation that would 
lead to the referral to the Justice Department.
    Mr. Carter. OK. Earlier, you talked about the 42 
recommendations that were outlined in the Superfund task force 
report and one aspect of these sites is that it's taken so long 
to remediate.
    The administration's top ten list--has it materialized and 
has that been set yet?
    Mr. Breen. Thank you.
    When we did the task force report, we envisioned a top ten 
list. It turns out that we thought there was more progress we 
could make than just at 10 sites.
    So what we thought was going to be 10 turned out to be 21 
and that's the list that we produced last month.
    Mr. Carter. So what started out as 10 turned out to be 21?
    Mr. Breen. Yes.
    Mr. Carter. Right. You mentioned about state involvement 
and about task force report, and in the task force report it 
describes the importance of third party investments.
    Can you elaborate on that just a little?
    Mr. Breen. Sure. So there are hundreds of sites that are in 
productive reuse, and often that's taking the work from mere 
clean to actually useable and the use of private investment for 
that is a strong possibility.
    Mr. Carter. Do you see any alternative methods or 
approaches to financing site cleanups?
    Mr. Breen. I think there probably are things we could be 
thinking about.
    Mr. Carter. Any examples?
    Mr. Breen. Sure. I think the Brownfields program gives us 
some examples we could look toward and understand better and 
learn from.
    Mr. Carter. OK.
    Mr. Breen, I am not trying to give you a hard time. But I 
am the one who has to go back to my district and answer these 
people and they want to know, 20 years, seriously? And yet, we 
got a settlement where we still haven't had any financial 
relief whatsoever. What am I supposed to tell them?
    Mr. Breen. Well, we'd like to sit down with you and walk 
you through it so you have that information.
    Mr. Carter. OK. All right. I hope it will be within the 
next 20 years. I mean, seriously.
    Mr. Shimkus. If the gentleman would yield. I know he's 
about ready--not much time. But if and when you have that 
meeting I would like to attend. I think it's a budgetary issue. 
I think it's a funding issue and I think there's a deeper 
answer--question to this answer.
    Mr. Carter. Right. Thank you very much, and I yield.
    Mr. Shimkus. Gentleman's time has expired.
    The chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member, for 
holding today's hearing.
    A strong and well-funded Superfund program is necessary to 
ensure the toxic sites in Texas and throughout the United 
States are cleaned up.
    Mr. Breen, thank you for joining us today at our hearing. I 
have a district in Houston, Texas, and Texas was hard hit by 
Hurricane Harvey in August. It destroyed houses, schools, 
businesses along the Texas Gulf Coast.
    A major concern from our community during Hurricane Harvey 
was the status of the nearly two dozen Superfund sites in and 
around the Houston area. The major one was the San Jacinto 
River Waste Pits, and I want to thank EPA and the administrator 
for being there right after the water subsided and visiting 
that site and also making the decision that they will be 
cleaned up.
    Of course, we have a responsible party with that facility. 
One of the things I kept hearing--because we did have a fire 
that's just east of my area--is there a national toll-free 
number that can people call at the EPA on some tragedy or 
something like that to get information or----
    Mr. Breen. Well, there is a national number for calling and 
reporting a release. In terms of getting information, we would, 
I think, probably hope those calls get routed to the people in 
the regions who are closest to it rather than handling them 
back----
    Mr. Green. Yes. Well, in our Region Six--like I said, on 
this one, but because of where we are located and our 
industries we have a significant number of Superfund sites.
    Is there a team that's ready to be deployed at sites 
immediately after a national disaster?
    Mr. Breen. Yes. We have about 200 to 250 on-scene 
coordinators. These are men and women who, as they say, sleep 
with their boots by their beds and there is at all times 
someone who is on call ready to go.
    Mr. Green. OK. Because we did have some tragedies at some 
of our facilities after that.
    One of the hallmarks of Superfund is a ``polluter pays'' 
principle, which holds polluters liable for the cleanup of 
toxic substances.
    Last month, Administrator Pruitt came before our committee 
and I asked Administrator Pruitt about the ``orphaned'' 
Superfund sites that do not have identifiable responsible 
parties, or PRP.
    I would like to follow up on the questions. How many 
``orphaned'' sites are listed on the National Priorities List? 
Do you have a number?
    Mr. Breen. And I wondered about that, too, when your staff 
mentioned you would ask.
    I don't have a specific number. I can tell you we usually 
approximate that at the remedial actions the responsible 
parties are performing the work about 60 to 70 percent of the 
time.
    But even at the remaining 30 to 40 percent, it's often the 
case that there are people we can go after. But we don't want 
to wait to make them do it. So we are doing it ourselves and 
we'll get reimbursed.
    So I don't know how many ``orphaned'' sites there are.
    Mr. Green. I hope that reimbursement works.
    Mr. Breen. Yes. We hope so, too. So but it usually does and 
we'll commit to getting you as best a number as we can.
    Mr. Green. OK. And so my second question is does the 
taxpayer pay for the cleanup in those cases on an ``orphan?'' 
But you're still going after somebody who may be the 
responsible party.
    Mr. Breen. That's right. If it's a truly ``orphaned'' site 
then there's nothing else but the federal government. But even 
at sites where there are PRPs not doing the work, we will seek 
cost of recovery if we think we can get the money.
    Mr. Green. The appropriations process, the money for the 
Superfund trust fund, did EPA request a funding increase for 
the Superfund for this current year do you know of?
    Mr. Breen. I think the president's budget does not.
    Mr. Green. OK. Was there a proposed cut in the Superfund? I 
haven't looked at the president's budget. We are not on 
appropriations so we don't carry it around with us.
    Mr. Breen. I think the president's budget showed a 
reflection of less money. But as I said, we'll work with 
whatever you give us.
    Mr. Green. In the Obama administration, 61 sites, or 
Superfund sites, were removed from the NPL including 12 toxic 
sites in 2014 alone.
    Can the administrator set an expectation for accelerating 
work in progress on all these Superfunds nationwide when EPA is 
recommending the sharpest budget cuts in the Nation's history, 
or the Agency's history, in eliminating 4,000 positions.
    Of course, the president's budget--and we appropriate the 
money--someday we'll have an appropriations bill maybe, but I 
hope that EPA seriously reexamines it budget request for 2019 
that will fully protect what in our area is human life and 
environment in a very urban area but also a very industrialized 
area in the upper Texas coast.
    I want to thank you, Mr. Chairman, for the time.
    Mr. Shimkus. Gentleman's time is expired.
    The chair now recognizes the gentleman from Texas, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman and Mr. Tonko, for 
holding this hearing.
    Mr. Breen, we appreciate you being here. I've looked at 
your limited bio that we are presented and it's unbelievably 
positively impressive. Princeton, Harvard Law, active Army, 
Justice Department criminal division, and that's all before you 
went to the EPA. That's impressive. It really is.
    How long have you actually been at the EPA?
    Mr. Breen. About 25 years.
    Mr. Barton. Twenty-five years. So you--that would be '93?
    Mr. Breen. It was toward the end of 1992.
    Mr. Barton. 1992. OK. So 1992, first Bush was president.
    Mr. Breen. Right.
    Mr. Barton. Did you go into the EPA as a civil service or 
as a political?
    Mr. Breen. Civil service.
    Mr. Barton. Civil service. So your career has been in the 
civil service?
    Mr. Breen. Yes.
    Mr. Barton. Do you have at present at EPA a political 
appointee above you other than Administrator Pruitt?
    Mr. Breen. No.
    Mr. Barton. No. Has there been someone who has been sent to 
the Senate?
    Mr. Breen. No.
    Mr. Barton. Is there anybody under consideration?
    Mr. Breen. That I----
    Mr. Barton. You don't know.
    Mr. Breen. I would have to defer on.
    Mr. Barton. So for the time being, you're the man. Is that 
fair to say?
    Mr. Breen. I am the national program manager for the 
Superfund program.
    Mr. Barton. In Texas we'd say you're the man. Yes.
    [Laughter.]
    Just out of curiosity, does the name Jan Gerro strike a 
bell with you?
    Mr. Breen. It does, but I----
    Mr. Barton. She's my sister. She is an environmental 
enforcement attorney for Region Six EPA in Dallas.
    Mr. Breen. Congratulations.
    Mr. Barton. And is reputed to be a holy terror.
    [Laughter.]
    Mr. Breen. I will take that back.
    Mr. Barton. I don't normally admit to that up here in 
Washington, since I am a conservative Republican. But she goes 
at them. She goes and gets them.
    Mr. Breen. Thank you.
    Mr. Barton. Has almost a 100 percent conviction rate, at 
least that's what she tells me.
    Our Congressman Carter from Georgia was just, rightfully 
so, complaining about Superfund site in his district that 
apparently nothing has been done on in 22 years.
    Can you tell me how many Superfund sites have actually been 
cleaned up in the history of the program?
    Mr. Breen. Yes, and I ought to get you the exact number.
    Cleanup is a term that really occurs in stages. So we have 
deleted hundreds from the National Priorities List. But even 
before a site is deleted it can be ready for anticipated use 
and we have hundreds more ready for anticipated use.
    And even sometimes cleanup is when is the construction 
complete, even if the public isn't ready to use it yet, and we 
have even more yet.
    So I will get you specific numbers on all of the----
    Mr. Barton. Just kind of a ballpark number. Seven or 800?
    Mr. Breen. For construction completion, I think we are 
higher than that.
    Mr. Barton. OK. Now, the staff briefing says that there are 
1,341 sites that are still listed.
    Mr. Breen. Right.
    Mr. Barton. Do you agree with that number?
    Mr. Breen. If the question is whether it includes the list 
we just put out a few weeks ago so I could----
    Mr. Barton. For debating purposes----
    [Simultaneous speaking.]
    Mr. Breen. Yes.
    Mr. Barton. What's a reasonable number for Congress to 
expect of the existing sites to be cleaned up per year?
    Mr. Breen. How many?
    Mr. Barton. Yes. Ten per year? Twelve per year?
    Mr. Breen. So we will make projections in our budget 
forecast that we'll give you in a week and a half for what we 
would project to do. I would probably be best to wait to get 
you those numbers.
    Mr. Barton. OK. But, I mean, is it reasonable for the 
Congress to expect double digit sites per year to be cleaned 
up?
    Mr. Breen. Yes, for construction completions I think so. 
How many double digits, whether it's 10 or 30 or whatever, I am 
going to wait.
    Mr. Barton. Now, and our chairman alluded to this, is the 
primary reason we don't have more progress on sites like 
Congressman Carter's because we just don't have the funding? Is 
that the primary reason? Or is it the complexity and the 
technical issues involved with the actual cleanup?
    Mr. Breen. It's a mix. We think--we think there are things 
we can do and that we are undertaking to be more efficient and 
we are going to push hard on those.
    In the end, though, there may be sites that still we can't 
get to and that's been the case for years. For probably every 
year but one out of the last, say, 10 or 15 there are sites we 
haven't gotten to.
    Mr. Barton. OK. Well, my time is expired. But we do 
appreciate your service and I think we've got a bipartisan 
agreement on the subcommittee that we need to modernize the 
Superfund process.
    But we also need to fund it if it's a funding issue. We 
need to clean these sites up. I mean, you know, Congressman 
Carter's got a very legitimate issue. When this sites' been on 
the list for 22 years and it doesn't appear that anything has 
been done----
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Barton. I yield back.
    Mr. Shimkus. Gentleman yields back. The chair now 
recognizes our own holy terror from the State of Colorado, Ms. 
DeGette, for 5 minutes.
    [Laughter.]
    Ms. DeGette. Thank you so much for that vote of confidence, 
Mr. Chairman.
    Mr. Barton. Holy terror is a compliment.
    Ms. DeGette. All right. From you, probably.
    So, Mr. Breen, Congressman Carter--in your conversation 
with him you talked about the potential of using Brownfields 
money for Remediation. But, of course, we are prohibited from 
using Brownfields money, yes or no?
    Mr. Breen. I didn't mean to suggest Brownfields money.
    Ms. DeGette. OK. Yes. Yes. We are prohibited from using 
Brownfields money for Superfund cleanup, right?
    Mr. Breen. Yes.
    Ms. DeGette. And, in fact, the whole idea of Brownfields is 
very different from Superfund, right?
    Mr. Breen. Not necessarily.
    Ms. DeGette. You wouldn't want to take all the Brownfields 
money and use that for Superfund?
    Mr. Breen. We wouldn't want to do that.
    Ms. DeGette. Thank you.
    Now, I want to ask you a couple of other questions. You 
told Mr. Tonko that there's a list of the members of the task 
force. Is that right?
    Mr. Breen. Yes.
    Ms. DeGette. Can we get a copy of that list?
    Mr. Breen. Yes.
    Ms. DeGette. Thank you so much.
    Now, do we have records of when the task force met?
    Mr. Breen. What we have are a hundred people's meeting 
notes that they took from the meetings that----
    Ms. DeGette. But do we have actual records of when the 
meetings were?
    Mr. Breen. I would have to check.
    Ms. DeGette. If you have them can we get a copy of that, 
too? And were there minutes of what was requested at those 
meetings?
    Mr. Breen. Not to my knowledge.
    Ms. DeGette. Just the notes of the----
    Mr. Breen. Of individuals.
    Ms. DeGette. OK. Now, in your experience, is it a normal 
practice at the EPA for a task force to develop a report with 
nor written records?
    Mr. Breen. It's not the case that we have no written 
records.
    Ms. DeGette. Well, OK. Let me ask you this then.
    Is it the practice for a task force to meet and to have no 
minutes or other records of what was discussed?
    Mr. Breen. Minutes would be pretty unusual. Other records 
is kind of the same situation as----
    Ms. DeGette. Do we have other records of the task force?
    Mr. Breen. Sure.
    Ms. DeGette. OK. Can we get a copy of those?
    Mr. Breen. I will have to turn that over to the people who 
actually manage----
    Ms. DeGette. But you don't have an objection?
    Mr. Breen. I don't personally have----
    Ms. DeGette. OK. I just have to say, Mr. Chairman, it seems 
a little odd to me that you'd have a task force with a 
recommendation but no minutes, no nothing. So I will be eager 
to see what I can get, Mr. Breen.
    I want to talk to you for the time I have remaining about 
the Gold King Mine. I imagine you'd assume that.
    The Gold King Mine in Colorado, it was included on the EPA 
list released on December 8 targeted for immediate intense 
action. A lot of us from Colorado have been focused on 
addressing the environmental damage caused by the August 2015 
release of toxic mine water that tainted the Animas River and 
caused hardship for Coloradoans, New Mexicans, and members of 
the Navajo tribe living downstream.
    So I want to ask you a couple questions. First of all, I 
understand that the EPA is currently conducting a remedial 
investigation and feasibility study. Can you give us a timeline 
for when that study will be released?
    Mr. Breen. It is the case we are undertaking remedial 
investigation. I don't have a target date for conclusion of it. 
I will get that to you.
    Ms. DeGette. That would be great. Thanks.
    Now, one of the goals highlighted by the Superfund task 
force was ``engaging partners and stakeholders.'' What actions 
is the EPA taking to engage stakeholders while the remediation 
plan is being developed?
    Mr. Breen. Thank you.
    So, first of all, we have provided more than $2 million to 
states and tribes to support water quality monitoring while the 
work is going on.
    Ms. DeGette. Right. Well, that's great. But what are you 
doing to engage the stakeholders? Are you having meetings? What 
efforts are you----
    Mr. Breen. There are community involvement coordinators who 
are working on what we call the Bonita Peak Mining District 
because----
    Ms. DeGette. Right.
    Mr. Breen [continuing]. Because the Gold King Mine and 
several dozen more.
    Ms. DeGette. Is part of that. Yes.
    Mr. Breen. Let me ask them to summarize for you what 
they're doing and get that to you.
    Ms. DeGette. That would be excellent. Thank you, because I 
know people are concerned.
    Also, in terms of funding, the EPA spent about $29 million 
responding to the release and about $5 million in additional 
cleanup at the site. Is that correct?
    Mr. Breen. The number $29 million is in my notes. I didn't 
have the other $5 million.
    Ms. DeGette. The $5 million was after that.
    Mr. Breen. OK.
    Ms. DeGette. So my question to you is, is the EPA committed 
to providing sufficient funding to complete the cleanup that we 
need to do?
    Mr. Breen. Yes.
    Ms. DeGette. OK. Great.
    Finally, I understand the EPA is opening a water treatment 
plan to clean up the water from Gold King Mine at the cost of 
$1.2 million. What is the EPA's long-term plan for the plant's 
operating cost?
    Mr. Breen. Well, if we are talking about the same thing, we 
know that in 2018 we'll continue to treat all the water----
    Ms. DeGette. Right.
    Mr. Breen [continuing]. Gold King Mine. Beyond 2018, I 
don't have written down. I will have to get that for you.
    Ms. DeGette. You don't know who's going to be in charge of 
that after----
    Mr. Breen. Oh, I know who will be in charge. I just don't 
have it to tell you at the minute.
    Ms. DeGette. OK. Great.
    Mr. Breen. But we'll get that for you.
    Ms. DeGette. If you can let me know I would appreciate it. 
Thank you so much. Thanks for your years of service to the 
Agency, too.
    Mr. Breen. Thank you.
    Mr. Shimkus. Gentlelady's time has expired.
    The chair now recognizes the gentleman from Ohio, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and Mr. Breen, thank 
you for joining us today.
    How can the EPA use incentives to encourage responsible 
parties to cooperate and come to the table early in order to 
avoid the increased transaction costs associated with 
protracted negotiations?
    Mr. Breen. Yes. The statute gives us considerable tools and 
I can explain a few of them and tell you we are eager to find 
whatever more tools, and that's one of the recommendations is 
to look at this.
    Mr. Johnson. OK.
    Mr. Breen. This is probably the most powerful statute in 
terms of civil liability that the Congress has written for 
environment law.
    If we give an order and the responsible party does not 
comply, in addition to daily penalties of $25,000 or more per 
day, when we ultimately clean up the site ourselves, we can sue 
for punitive trouble damages.
    So if we clean up for $5 million, the defendant is exposed 
to our $5 million cost recovery, $15 million in punitive 
damages, and $25,000 or more per day. It's an enormous exposure 
on the defendant's part--not one that companies take on 
lightly.
    Mr. Johnson. OK. Well, that actually answers my second 
question--how can you use enforcement authorities and that's 
some of the enforcement leverage that the EPA has to get a 
cleanup started or to help reach settlement, right?
    Mr. Breen. Right.
    Mr. Johnson. OK. How does the EPA ensure the timeliness and 
the cost effectiveness, consistency, and quality of cleanups?
    Mr. Breen. We have a number of methods in place. First of 
all, the remedial project managers are well-trained and they 
all have branch chiefs who are experienced and veterans.
    And so the natural thing is to design remedies by people 
who are well-trained and expert. For most remedies above a 
certain amount, we then take it into what's basically an 
internal peer review process.
    For about the last 20 to 25 years we have used what's 
called a remedy review board, and remedies over a certain size 
get discussed by all 10 regions before the remedy selection is 
finalized.
    And now for the largest remedies we take them to the 
administrator himself and that in that way the whole region, 
including the regional--we take them to the U.S. EPA 
administrator. So the regional administrator will be involved 
as well as headquarters.
    Mr. Johnson. OK. All right.
    Finding new ways to efficiently addressing clean up sites 
on the National Priority List is certainly commendable and 
we've talked a lot about that here today.
    That's why I am encouraged by EPA's focus on this issue 
through the Superfund task force and its recommendations. So 
while the Superfund task force notes that there is no need for 
statutory changes to carry out its recommendations, were there 
ideas omitted that did require congressional action and are 
there any recommendations that could be most effective through 
a statutory change?
    Mr. Breen. So in the deliberations of the task force, we 
just put aside anything that might lead to a need for statutory 
change. It just wasn't within the scope.
    I did observe that in last month's hearing the 
administrator--when one of your colleagues asked that question, 
the administrator said that perhaps there are lessons to be 
learned from the new Brownfields legislation that could be 
carried into Superfund. We would be prepared to discuss those 
kinds of ideas or others with you.
    Mr. Johnson. OK. All right. Thank you.
    Mr. Chairman, I yield back a whole minute and 13 seconds.
    Mr. Shimkus. The chair thanks and the chairman yields back 
his time.
    Now we recognize the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. OK. Thank you, Mr. Chairman, and thank you, 
Mr. Breen, for appearing this morning.
    When Administrator Pruitt was here last month I brought up 
the importance of enforcing all of our environmental laws, not 
just relating to Superfund.
    If we fail to enforce all of our environmental laws we will 
continue to create new dangerous sites, adding to the national 
Superfund priorities list.
    Unfortunately, I think this administration's efforts to 
delay and dismantle regulations will do just that. Mr. Breen, 
as deputy administrator for the Office of Land and Emergency 
Management, I would like to ask you about some of the rules 
that have been delayed or repealed.
    The risk management planning program amendments would have 
made chemical facilities with large stores of dangerous 
chemicals safer. Those amendments were about to take effect 
last year but had been repeatedly delayed and are now being 
reconsidered.
    If a disaster were to strike a facility covered by the risk 
management planning program, leading to a large-scale release 
of toxic chemicals, could that release lead to the creation of 
new Superfund sites?
    Mr. Breen. Thank you.
    So the risk management program, the public comment period 
in 2016 ended within a few days of an important ATF finding 
that the west Texas explosion, which had motivated so many of 
us to do better--that the west Texas explosion was associated 
with arson rather than an accident.
    That important fact needed to be taken into account. So we 
delayed the effective date in order to take that and similar 
kinds of input into account.
    But to answer your question, any site could explode and 
create a Superfund site.
    Mr. McNerney. Well, turning now to the requirements for 
safe disposal rule of waste under the resource conservation and 
recovery rule, we all know that unsafe disposal of waste can 
lead to the creation of Superfund sites.
    Despite this, the EPA announced in September that the 
Agency would reconsider the final rule governing the disposal 
of coal ash. When the Kingston coal ash impound burst in 2009, 
the contaminated water that was released created a new 
Superfund site. Is that right?
    Mr. Breen. I don't know if it created a new Superfund. But 
it certainly released material that we responded to.
    Mr. McNerney. Thank you.
    Your office also handles emergency response including 
response to hurricanes.
    Mr. Breen. Yes.
    Mr. McNerney. As we've seen this year, and also illustrated 
by my friend, Mr. Olson, hurricanes can damage Superfund sites 
and cause dangerous release from refineries and chemical 
plants.
    In my State of California, we've seen devastating wildfires 
and mud slides, which also have the potential to spread 
environmental contamination.
    Do you agree that extreme weather events have the potential 
to create or worsen Superfund sites?
    Mr. Breen. Yes.
    Mr. McNerney. Hasn't the EPA found that Superfund sites are 
vulnerable to the effect of climate change including flooding, 
rising sea levels, increasing wildfires, and changes in 
temperature?
    Mr. Breen. So we took a study on this ourselves and found 
that, first of all, we have to respond to climate change and 
that's just part of our mission set and so we need to design 
remedies that account for that.
    And we don't get to pick where Superfund sites are. We deal 
with the waste where it is. So we found in our own study that 
our procedures were, for the most part, satisfactory but that 
we needed to be careful and attentive and have some additional 
tools to meet those procedures.
    But as well I think there are external reviews both by the 
general--Government Accountability Office and the inspector 
general and we'll look forward to working with them to 
understand whether they think we need to be doing different, 
not just better.
    Mr. McNerney. Well, thank you.
    Mr. Chairman, I have here a June 2014 climate change 
adaptation implementation plan adopted by Mr. Green's office to 
address the risk of climate change to Superfund sites.
    Unfortunately, this document does not appear on the EPA's 
website. So I would like to include it for the record.
    Mr. Shimkus. Hearing no objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. All right.
    Mr. Shimkus. And I thank you.
    Mr. McNerney. Despite this evidence, the climate change 
will make Superfund sites more dangerous and potentially create 
new additional Superfund sites.
    The Trump administration and the Pruitt EPA are undermining 
and rolling back our efforts to fight climate change. If the 
president and Administrator Pruitt are serious about addressing 
contaminated sites in our country, they need to abandon the 
regulatory rollbacks and strongly enforce all of our 
environmental laws including the Clean Air Act to address 
climate change.
    Thank you. I yield back.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you, Mr. 
Breen, for being here.
    One of the questions that always comes up about special 
accounts and I would like to ask if you could give us a brief 
overview of how special account funds are collected. If you 
would tell us what the current balance of the special accounts 
is and if you could walk us through how special account funds 
are spent.
    Mr. Breen. Yes, sir.
    So the current balance is about $3.2 billion in special 
accounts and over all the years we've collected about $6.8 
billion. So $6.8 billion collected, $3.2 billion approximately 
on hand.
    In nearly every case, special accounts are funded as a 
result of a consent decree with a responsible party and they 
give us cash. We can settle for cash or work or both, and there 
are plenty of times they would give us cash.
    The United States has the authority under legislation that 
the Congress gave us to not turn that money over to the 
miscellaneous receipts account, which is where it would 
otherwise go, but to instead keep it in the EPA accounts at the 
Treasury in order to spend it at the site.
    So this is thanks to you that we do this.
    Mr. Walberg. So that's why the balance is so high at this 
point right now?
    Mr. Breen. I will just add one more thing.
    Mr. Walberg. OK.
    Mr. Breen. We earn interest on it and Treasury credits us 
interest. So not just get the money from the PRPs but we get 
money from the Treasury as interest grows.
    Many of these sites it's smart to take the money now 
because we don't know--if we said to the PRP, ``Give us a 
million a year for the next 30 years,'' we are betting on that 
PRP having that money for the next 30 years and it's just 
smarter to take it now and put it in the Treasury where it's 
safe and then spend it as it's needed. So for that $3.2 billion 
that's on hand, we have multi-year plans for every site with a 
material amount of money for how that money will be used year 
by year into the future.
    Mr. Shimkus. Would the gentleman yield just a minute?
    Mr. Walberg. I certainly would.
    Mr. Shimkus. So why we are asking this question is really 
following up on what Buddy Carter had said on his site and it 
would be interesting in the discussions if some of the 
litigation or whatever went into that special account and if so 
why isn't that money being then used. That's kind of how we are 
following up this line of questioning.
    Mr. Breen. Thank you. We will factor that in then. Thank 
you.
    Mr. Shimkus. Thank you, Mr. Walberg.
    Mr. Walberg. One of the recommendations of the task force 
is to use special account funds as financial incentives to 
potentially responsible parties perform cleanup work. Can you 
explain how these incentives would work?
    Mr. Breen. There are important discussions to be had with 
the Justice Department on this and the Office of General 
Counsel. Obviously, we can only do what's statutorily 
authorized and most of these accounts are created because we 
have a consent decree, which the Justice Department has been 
instrumental in providing.
    But it may be that within the terms of the consent decree 
the money doesn't have to be used only in the way it was 
originally visioned but it can be used in the way that's needed 
now.
    So we would be open to thinking about that and seeing what 
can be done.
    Mr. Walberg. So you could give incentives. Could you 
reimburse a potentially responsible party that completes the 
work early at the site?
    Mr. Breen. That I would need to get counsel on to give a 
good answer for.
    Mr. Walberg. OK. Does the statute need to be updated to 
clarify what special account funds may be used for?
    Mr. Breen. We'd like to work with you on that. We'd want to 
make sure we sort of articulated for you what the need is. So 
let us work with you on that.
    Mr. Walberg. OK. Well, thank you. I yield back.
    Mr. Shimkus. The gentleman yields back his time and the 
chair thanks my colleague for that round of questions.
    The chair now recognizes the gentlelady from Michigan, Mrs. 
Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman, and I want to thank 
you and Ranking Member Tonko for having this hearing, and Mr. 
Breen, I do believe that you deeply care about this program but 
I still have a lot of concerns, which I think you have been 
hearing all of my colleagues, Republican and Democrat, express 
today.
    The EPA's Superfund program is really one of our 
cornerstone environmental pieces, so legislation that has 
always shared great bipartisan support.
    Today, as you look at the future of the program, you can 
tell that all of us here are really worried about it and we are 
really worried about what's not happening, and I hope that we 
are all going to work together in Congress to provide and 
protect full robust funding during the annual appropriation 
process.
    Without strong and continued funding, we continue to 
increase the risks to our public health and the environment 
long term. We would also see negative economic consequences in 
communities plagued by contaminated pollution sites.
    Of the 1,345 sites on the National Priorities List, 
Michigan has 88 listed Superfund sites and in my district alone 
we've got three contaminated sites that need serious attention.
    Only one of them has been designated as an official--it's 
been put on this National Priorities List--and I am going to go 
off script, which I always do, and make this point that I've 
been in the Congress for 3 years. Walked into, in my first 
year, a meeting that the city people had asked me to organize 
for Brownfield sites and was told by my region that this was on 
the list for the national priority site. It was a serious site. 
It's the Trenton McLouth Steel site, as you know.
    And by the way, my colleague, Mr. Walberg, abuts and shares 
with me the Gelman Science dioxin plume in Ann Arbor as well, 
which we've been doing many meetings, and you know that you too 
have shared concerns on that.
    But I think, unfortunately, I've been in too many meetings 
on both of these sites and what stuns me is that the site is 
leaking, that we are not telling the community there could be 
danger, and this Superfund site or potential Superfund site 
that you have told me is going to be listed at some point on 
the national priority site there was raw sugar being stored 
that was then being distributed in Michigan.
    So I think all of us are concerned that there are many more 
sites that are even on the site that need to be cleaned up and 
it's taking too long to be designated, and then I've even been 
told on both sites but even when you get designated it's going 
to take years to get the money to clean it up.
    Now, we founded this law to keep communities clean. You 
heard my colleague, Mr. Carter, talk about how long that site 
had been sitting there.
    This is a crisis in our country that we've got sites that 
are hurting areas that aren't being cleaned up. So with my 
remaining time, I think funding for EPA's Superfund program 
matters so it's going to be the focus of what's left.
    Appropriations to the Superfund program have generally 
declined between fiscal year 1999 and 2016 by about 45 percent. 
Additionally, cuts were announced for fiscal year 2018.
    Mr. Breen, in EPA's budget for fiscal year 2018 the 
Superfund program was decreased by 30 percent? Yes or no.
    Mr. Breen. That's approximately right, certainly.
    Mrs. Dingell. Concerning, this long decline in funding had 
delayed the start of the new remedial action projects in many 
states that I was just talking about and additional cuts will 
only delay further projects.
    And yet, despite declining funds and a slowdown of 
completed remedial actions, Superfund sites continue to be 
added to the National Priorities List which, by the way, I 
think they should be.
    Mr. Breen, why were dramatic cuts made to the Superfund 
program in the fiscal year 2018 budget? How do you justify 
these cuts as the National Priorities List grows and can we 
expect future cuts to the program, and what the hell does that 
mean?
    Mr. Breen. Thank you.
    First of all, of course, we always support the president's 
budget. Secondly, it's always true that we will work with what 
you give us.
    Let me now turn to what we can do within that. First, we 
are looking for ways to save money no matter what. Even if you 
were going to give us more money, we should be looking for ways 
to save money.
    The inspector general told us a few months ago that they 
thought we could reallocate where Superfund personnel are 
assigned and be more efficient. The inspector general told us 
that some regions are having to hold up work because of 
insufficient people to do it and other regions are not.
    So we are going to undertake a way to, in a multi-year 
plan, look at how we distribute FTE among regions. We are 
looking at ways to do contracting better with a remedial action 
framework and, frankly, we think the 42 recommendations some of 
those will yield savings. In the----
    Mrs. Dingell. Mr. Breen, can I ask you--because we are now 
in positive--do you need more money to do what you need to do?
    Mr. Breen. So there are choices we even make.
    Mrs. Dingell. But that's not my point. Do we have sites 
that need to be cleaned up that are threatening people that 
need dollars to clean them up?
    Mr. Breen. So I can answer that in this way. In almost 
every year for the last 10 or 15, at the end of the year we 
have had sites that are ready to be funded but that we didn't 
have funds to get to. These are projects that we didn't fund. 
That's been true for a very long time.
    Mr. Shimkus. The gentlelady's question has been answered 
and she yields back her time, and the chair thanks Mr. Breen 
for his attendance and I think it was an excellent job in 
answering the questions as we put forward, based upon the place 
where you're at.
    Are you ready to ask questions, Mr. Cardenas?
    Mr. Cardenas. Thank you.
    Mr. Shimkus. So you're not excused. We still have one last 
member. The gentleman from California is recognized for 5 
minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    Sorry about that. You were almost excused. But thank you 
for holding this important hearing. Let me gather my thoughts 
really quick.
    When it comes to environmental cleanups and it comes to the 
status of where we are at in this country today, are we up to 
par? Are all in order? Or do we have much work to do?
    Mr. Breen. First of all, we have a remarkable legacy that I 
couldn't be prouder of. We also have a lot more to do.
    Mr. Cardenas. OK. Is it specifically confined to one region 
or one state where we have more work to do?
    Mr. Breen. We have nationwide a considerable amount of work 
to do.
    Mr. Cardenas. I would venture to believe that there's 
probably not a state in the nation that doesn't have some 
effort that we need to address.
    Mr. Breen. I would have to check on whether it's every 
state. I would need to get back to you on that.
    Mr. Cardenas. Again, not every corner of the country but 
there's probably no state exempt from work that still needs to 
be done.
    Mr. Breen. We have unfinished work in lots and lots of 
places.
    Mr. Cardenas. Yes. When it comes to the amount of funding 
that we have afforded ourselves to address these issues, are we 
where we need to be or should we figure out a way to make sure 
that we responsibly try to help our local governments and our 
local communities address these issues?
    Mr. Breen. We are looking for ways to be more efficient 
with the dollars that we get.
    Mr. Cardenas. Sure. Always.
    Mr. Breen. And in fact, one of the things the Superfund 
program does is fund on-the-ground emergency response and 
there's a choice to be made about how much to put into 
emergency response and how much to save for the long-term 
cleanups. It's kind of a pick your favorite child situation. 
You want to do more of both but that's a judgment call.
    Mr. Cardenas. We are a very blessed nation. We have a 
pretty high standard of living, et cetera. But is potable water 
still an issue in parts of our country and also is potable 
water being affected by activities that, unfortunately, we've 
affected that potable water in communities around the country?
    Mr. Breen. Indeed, in your district. As you certainly know 
so well, better than me, we've produced 95 billion gallons of 
clean drinking water, thanks to the work of the Superfund sites 
in your district.
    Mr. Cardenas. And those Superfund sites are still going on, 
literally, today.
    Mr. Breen. Exactly.
    Mr. Cardenas. As my neighbors and even my children said, 
``Dad,'' thinking I know everything, ``what's that?'' They 
cordon off a portion of a street and I said, ``Well, they're 
cleaning up the ground water below us,'' et cetera. With issues 
as dangerous as chromium-6 and, again, your average American 
says, ``Chromium what?'' But the bottom line is it's dangerous 
elements, heavy metals, et cetera, that we, unfortunately, 
allowed to leach into our drinking water.
    So that being the case, Los Angeles has been fortunate 
that--I believe, that with the cooperation of the state and 
support and the federal government and with a--the largest 
department of water and power that serves my community of the 4 
million people of Los Angeles we've been able to do a little 
bit of catch up but we still have much work to do.
    Let's take a community like Los Angeles. People think it's 
a big city. But it is spread out. We have many aquifers. We 
have many sources of water, et cetera.
    Can you give me an example of what we could do more 
together with local government and the Federal Government when 
it comes to the cleanup that still has to be done in a 
community like Los Angeles?
    Mr. Breen. Yes. One thing that we aren't doing right now is 
seeing whether we can make upgrades to the Superfund remedies 
presently installed in the sites in your district rather than 
just say that we are going to let them run themselves down.
    We want to see if we can upgrade them and that work is 
ongoing.
    Mr. Cardenas. OK. Again, to the earlier point that you and 
I agreed, much work to do.
    Mr. Breen. Absolutely.
    Mr. Cardenas. Now, that being the case, what can Americans 
do today to help make sure that we reduce the number of future 
Superfund sites, et cetera?
    And I am not picking on business. I am just saying as a 
populace whether it's business or individuals or government 
what could we do to be more preventative?
    Mr. Breen. This is a complicated question and some of it is 
not law. Some of it is the ways in which we make things. One of 
the programs in my office at the EPA is sustainable materials 
management. It's a use of things that don't have to be thrown 
away--that can be reused or repurposed--and there's a lot of 
progress that could be made there.
    Mr. Cardenas. Yes. And, unfortunately, sometimes regulation 
is labeled as bad. But when it comes to, for example, potable 
water, it's so precious and to every community.
    Isn't it important that we have right size regulation and 
responsible efficient regulation?
    Mr. Breen. Yes.
    Mr. Cardenas. OK. Thank you very much.
    I yield back.
    Mr. Shimkus. The gentleman yields back his time. All time 
is expired and we want to thank Mr. Breen again.
    We are going to talk real quick so you can get out of here 
before someone else shows up.
    Thank you very much and we would like to sit the second 
panel and we will dismiss Mr. Breen.
    Thank you all for being here and thank you for listening to 
the first panel. I think that could be helpful and as we have 
our discussion here today because we want--the whole intent is 
to try to see if there's legislative changes we can do to make 
the system work better.
    So we want to thank you for being here today and taking the 
time to testify.
    At the second panel we have Mr. Steve Cobb, chief of land 
division, Alabama Department of Environmental Management on 
behalf of the Association of State and Territorial Solid Waste 
Management Officials.
    We have John Winston Porter, environment and energy 
consultant. We have James McKenna, Portland Harbor policy 
analyst for Governor Brown's Natural Resources Office. Debbie 
Mans is executive director and baykeeper, New York/New Jersey 
Baykeeper, and Katherine Probst, who is an independent 
consultant.
    Your full records have been submitted for the record. You 
will have 5 minutes. And with that, I would like to turn to Mr. 
Cobb to start.
    You are recognized for 5 minutes.

    STATEMENTS OF STEVE COBB, CHIEF, LAND DIVISION, ALABAMA 
   DEPARTMENT OF ENVIRONMENTAL MANAGEMENT, ON BEHALF OF THE 
  ASSOCIATION OF STATE AND TERRITORIAL SOLID WASTE MANAGEMENT 
  OFFICIALS; DR. J. WINSTON PORTER, ENVIRONMENTAL AND ENERGY 
  CONSULTANT; JAMES MCKENNA, PORTLAND HARBOR POLICY ANALYST, 
    GOVERNOR BROWN'S NATURAL RESOURCES OFFICE; DEBBIE MANS, 
 EXECUTIVE DIRECTOR AND BAYKEEPER, NY/NJ BAYKEEPER; KATHERINE 
                 PROBST, INDEPENDENT CONSULTANT

                    STATEMENT OF STEVE COBB

    Mr. Cobb. Thank you for the introduction, Mr. Chairman.
    Good morning, Chairman Shimkus, Ranking Member Tonko, 
members of the subcommittee. I want to thank you for the 
opportunity to speak at today's hearing.
    Representing ASTSWMO, which is the State and Territorial 
Solid Waste Management Officials with the waste management 
officials including those responsible for the oversight of 
cleanups, we appreciate the opportunity to present our thoughts 
on the topic of modernizing the Superfund cleanup program.
    As you're aware, much has changed and many lessons have 
been learned in the almost 40 years since CERCLA has been 
enacted. For example, robust cleanup programs have been 
developed by the states and EPA. The methods and technologies 
have been expanded. States have become key co-regulators and 
program partners with EPA in protecting human health and the 
environment.
    Given the history and growth of our cleanup programs both 
state and federal, I will describe several recommendations to 
consider in evaluating the modernization of the cleanup 
program.
    CERCLA is a vitally important tool in the EPA and state 
toolboxes for ensuring and implementing needed cleanup at many 
sites across the country.
    However, effective tools must be periodically sharpened and 
maintained to ensure their continued relevance and 
effectiveness.
    As a part of any effort to modernize the program, the 
national contingency plan should be updated to reflect 
important lessons learned from the almost 40 years of cleanup 
experience by states and EPA.
    In order to truly affect streamlining and efficiency 
improvements for the long term, changes to the program must be 
incorporated into the fabric of the program and communicated to 
those individuals who conduct the day-to-day implementation.
    The NCP is the rule book that project managers, 
supervisors, and legal support refer to on a regular basis for 
guidance and direction in managing cleanup and decision making, 
and the foundation that CERCLA cleanup program guidance is 
based upon.
    The NCP should also be updated to provide for a more 
streamlined and efficient process for managing responsible 
party-led and funded cleanups as compared to those cleanups 
conducted directly by EPA using funds from the Superfund trust 
fund, where additional documentation is often required in order 
to support future litigation and cost recovery efforts.
    By providing for a more streamlined process for sites where 
the responsible party is funding and implementing the process, 
a further incentive is created to encourage responsible parties 
to step forward and work with EPA and the states cooperatively 
to clean up sites in a more timely, efficient, and cost-
effective manner.
    The process for identifying and selecting ARARs is also an 
area which should be addressed as part of modernizing the 
program. In addition, the statute and regulations should be 
updated to make clear the state environmental covenant, laws, 
and regulations are essential components of many remedial 
actions, especially those that require longer-lasting 
remediation activities.
    As a part of improving the ARAR's identification and 
selection process and in recognition of the co-regulator role 
of the states, it's important that the role for state co-
regulators in CERCLA decision making is enhanced. As a part of 
the evaluation of the ARAR process perhaps the long-standing 
CERCLA exemption for permits should be reconsidered.
    While this exemption may have been advantageous in the 
beginning of the program to ensure that cleanups were timely, 
the states' and EPA's permanent programs have matured to the 
point where this may no longer be a benefit.
    Modernization of the program should include strengthening 
and clarifying the federal facilities compliance provisions of 
CERCLA. In implementing the cleanup provisions of CERCLA, it is 
imperative to ensure that both industry and government 
responsible parties are held to the same high standards.
    Recognizing that robust state cleanup programs have been 
developed and implemented in the four decades since the 
enactment of CERCLA, the program should also more clearly 
recognize the cleanups conducted under other cleanup 
authorities achieve results at least as productive as CERCLA 
actions.
    The states generally consider the nomination of a site for 
the NPL as a last resort and only after exploring and 
exhausting all other available state and federal programmatic 
enforcement and incentive options to either motivate a 
recalcitrant PRP or entice an unliable party interested in 
taking on the cleanup as a part of redevelopment.
    It is not wise to give the impression that only CERCLA 
cleanup actions are protective. By ensuring that CERCLA 
recognizes the merits of other programs, we increase the 
overall effectiveness and efficiency of cleanups regardless of 
the program under which they're conducted.
    States' concerns related to cost share related to fund-led 
cleanup should also be addressed including consideration of 
greater flexibility and credit for states in providing in-kind 
contributions to cleanups which may be used to fulfill these 
cost contribution obligations, and modernization should include 
provisions to ensure that needed regulatory cleanup standards 
are developed and updated in an expeditious manner using sound 
science and the best information available.
    The program consists of at least four distinct components: 
the assessment and identification of releases, referred to as 
the preliminary assessment site investigation component, short-
term removal actions, long-term removal actions conducted and 
funded by responsible parties, and long-term actions conducted 
by EPA using the trust fund.
    Many states have the resources and desire to play a greater 
role in the process, and when willing and able those states 
should be encouraged to do so.
    Consideration should be given to authorizing states to 
directly implement both the PA/IS and the responsible party-led 
and funded removal and remedial components, which would add 
substantial capacity to the cleanup and decision making 
authority of the program and free up precious federal resources 
to focus on those ``orphan`` sites and fund-led sites.
    In conclusion, states consider the Superfund cleanup 
program to be a vitally important tool for cleaning up our 
nation's contaminated sites and restoring and protecting human 
health and the environment.
    States have positioned themselves to be effective partners 
and co-regulators with EPA in implementing the cleanup program 
and look forward to working with EPA, Congress, and others in 
our collective efforts to continue to modernize and improve the 
effectiveness and efficiency of this program.
    Thank you.
    [The prepared statement of Mr. Cobb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [The attachments to Mr. Cobb's statement can be found at: 
https://docs.house.gov/meetings/if/if18/20180118/106783/hhrg-
115-if18-wstate-cobbs-20180118.pdf.]
    Mr. Shimkus. Thank you.
    Dr. Porter, you're recognized for 5 minutes.

                 STATEMENT OF J. WINSTON PORTER

    Mr. Porter. It's good to be here. I want to be very direct 
this morning. I used to run this program for a long time and I 
was going to tell Mrs. Dingell that I spent a lot of time with 
her husband. I would certainly call the him Father of 
Superfund.
    Mr. Shimkus. We have all dealt with Congressman Dingell.
    Mr. Porter. We all--and Mr. Oxley and many other people 
have dealt with this committee.
    Anyway, I want to be very, very direct here, if I can. I am 
in private practice now but I spent a lot of time in Superfund. 
I still spend a lot of time in Superfund.
    I liked the 40 items that the previous speaker--Barry 
Breen's a good guy. I know him well. He's very smart. He's not 
in the position to make the kind of things you need to make 
this program going. You need somebody that represents the 
president, and I'll talk more about that later.
    One of the things I want to mention is that, as several 
people have said today, the most important thing in Superfund--
we got a lot of people who worked on the Superfund. EPA has got 
a lot of good people. The states have done a lot of good work.
    But the basic thrust today, Superfund costs way too much 
and does not nearly as much work as it should, period. That's 
my bottom line.
    Now, how do we improve this situation? And by the way, I 
think we can do it. I've seen several assistant administrators 
who have done quite well. Others have not done so well. It's a 
tough job and you need people who can really run this program.
    In fact, I would say the most important thing I can say to 
you today I'll start out with. It's critical that the president 
put in someone in my old job or other assistant administrators.
    They had the ability to do it. They are authorized by law 
to make remedy selections. So if you really have a site that's 
not being done, you go to my old position and that person has 
the authority in the CERCLA statute to make the decision.
    Otherwise, it's a very large committee process.
    So it's critical, in my opinion, that the president appoint 
an assistant administrator to run the Superfund program on a 
day-to-day basis.
    He or she has the authority to make the key decisions and 
can run the projects. I don't mean micro manage them all but to 
be sure things get done, and make the tough decisions.
    Excuse the name dropping, but I've talked to at least a 
dozen or so governors when I was there, many, many hundreds or 
dozens, at least, of people, Congressmen, where you had to kind 
of get down to making a decision, and I think that's really 
critical that you get somebody who can do that.
    That person, in my judgement, should have a technical 
background probably, is a good manager, understands the 
program, and is willing to make tough decisions and is, 
frankly, a pretty good communicator.
    Now, there are three or four things I want to present 
today, some of which you heard, some of which you haven't. 
Probably the next most important thing is to set and enforce 
deadlines.
    One thing I used to do, every quarter I would send all 10 
regional administrators, here's what we are going to finish 
this quarter--give me a call--send your staff up if you don't 
make it.
    I grew up in the private sector where I ran large projects 
around the world and I try to treat this just as seriously. So 
you set and enforce deadlines, and a key job of the assistant 
administrator is to be sure we get these things done. When I 
tell the governor or I tell a member--Congressmen or Senators 
I'll bring in and finish the site, we finish it.
    Love Canal, just a quick name we all know--I spent a lot of 
time with senior people in the state of New York. I spent a lot 
of time in Buffalo, et cetera, and a lot of time with Mr. 
LaFalce who was a Congressman at that time.
    When I said we were going to do it in a year and a half, we 
did it in a year and a half. I am not the only one that can do 
that. Many people can do that. You just got to get the right 
people.
    Set and enforce deadlines and, particularly, help with the 
selection of remedy. That's the key thing in this program is 
what are we going to do here. I have a couple sites--well, I 
may mention several, and I gave a lot of names here. But there 
have been sites where you've spent $100 million in 10 years and 
don't have a remedy.
    I am not saying don't clean up the site. I am saying don't 
even have a remedy, and these are fairly recent sites and there 
are many others.
    One thing that's not been discussed today--and Mrs. Dingell 
might be interested in this, from what she said--there is an A+ 
program at EPA called Emergency Removals and Early Actions.
    It's not done as well as it could be done but it's very--
when I was interviewed, a reporter when I left said would you 
give yourself an A on anything? I said, well, I'd get some B's 
and B minuses, but A+ is the Emergency Removal program.
    And what that basically means is I, and other people in the 
regions, can agree to do something that's, they might say to 
me, ``Can you give me a couple million dollars to go out; these 
barrels are leaking,'' and stuff like that. Very good program.
    In fact, one of the guys--I'll mention one name here--
several people I know that have been in that position and one 
or two of them became assistant administrators. They were very 
good because they were used to doing things quickly.
    So I think Emergency Removals are going to be important. 
Number three, I wanted to take a little different tack on one 
issue. The term PRP--potential responsible parties--has not 
been mentioned much today.
    Those are the companies or the cities or the other people 
who are caught up in this program. They are going to have to 
pay for it, et cetera. And that needs improvement. And I've 
talked a lot to my industry colleagues out there about how I am 
concerned that many large companies, when they start a program 
like this, they immediately turn to their legal department.
    My dad was a lawyer. Many of you are lawyers. I have 
nothing against lawyers. But you need top managers to do this 
work. And I think I talked to--most of the EPA when I was there 
was the general counsel. He was extremely good, extremely 
helpful. He would always tell me, ``Where do you want to get to 
and how do we get there?''
    So it's important that the PRPs, or responsible parties, be 
dealt with and they need to improve because they have the know 
how. I don't need to necessarily tell a Dupont or a Monsanto or 
AT&T how to run a project. But what I do need to do is say, 
``You're going to pay for this. Let's do it in the most cost-
effective way we can and let's really get on with it.''
    So I think it hasn't been talked about enough. There is 
some real failure here, in some cases, of the companies 
involved to get serious, work with us. Not listen only to their 
lawyers but also their engineers and, frankly, their senior 
management--that we want to get this thing done. It's a 
terrible PR problem, et cetera.
    One thing that has most----
    Mr. Shimkus. Give me your last or quick--you're already 
over so give me----
    Mr. Porter. OK. Just going to say I'd like to see us get 
rid of some of the things that are just a drag on us.
    Mr. Breen mentioned the Remedy Review Board. It's worse 
than nothing. It takes a lot of time and stuff. Nice people and 
all that, but it takes a lot longer. It's because that one 
thing. So there are many other things like that, too.
    [The prepared statement of Mr. Porter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. That's the kind of testimony we like to hear. 
We appreciate your time.
    The chair now recognizes the gentleman from Oregon, Mr. 
McKenna. Welcome. It's good to see you again. You're recognized 
for 5 minutes.

                   STATEMENT OF JAMES MCKENNA

    Mr. McKenna. Thank you.
    Chairman Shimkus, Ranking Member Tonko, and members of the 
subcommittee, I thank you and Governor Brown thanks you for 
providing this opportunity to provide testimony today on 
modernizing the Superfund program.
    Before I get into the details of the testimony, please 
allow me to convey a little bit of my background and my 
expertise in Superfund.
    I've been involved with Superfund sites for over 30 years 
starting off as an environmental coordinator for NASA's Jet 
Propulsion Laboratory in Pasadena which, in and of itself, had 
a contaminated groundwater plume impacting the city of Pasadena 
water wells.
    Prior to joining Governor Brown's Natural Resource Policy 
Office, I was a private consultant, owned my own firm doing 
primarily Superfund work.
    I know my time to testify is limited so you have my written 
material. So I am going to cut to the chase of the issues I 
want to bring forth in terms of improving the program.
    Any attempts to modernize or revamp the Superfund program 
should consider four existing principles. In other words, these 
are principles we wouldn't support changing in any way, shape, 
or form and that is, number one, the ``polluter pays'' 
principle--that the polluters each pay their fair share at the 
end of the day for the contamination and not put that burden on 
the public.
    Number two, there could be no adverse impact or unjust 
burden placed on at-risk or underserved communities in the 
neighborhood of Superfund sites. In fact, we should be looking 
for ways to develop family wage jobs for those at-risk 
community members associated with the cleanup as the cleanup is 
progressing to see if we could actually do job force, work 
force development to get them involved in the cleanup as well 
as the Brownfield redevelopment sites' post-cleanup.
    Number three, there's no cookie cutter approach to 
revamping Superfund. All these sites are very unique. Portland 
Harbor is a very large mega complex site and so the fixes for a 
Portland Harbor-like site are not necessarily going to be the 
appropriate fixes for smaller Superfund sites. We need to keep 
that in mind. There's no cookie cutter approach.
    And number four, any efforts to reduce or obviate the 
timely and meaningful input of the public and the Native 
American sovereign governments at these sites would not be 
acceptable to the State of Oregon.
    We have a very complex site. We have numerous community 
involvement. Community groups have been involved since the 
beginning in 2000. We have six Native American tribes, all 
sovereign governments that have been actively involved. The Nez 
Perce, Yakima, Warm Springs, Umatilla, Grand Ronde, and Siletz 
are all at the table. There need to be seats maintained at that 
table for those parties to make sure that they have meaningful 
input in the process.
    So that being said, the State of Oregon has a list of 
proposed modifications to the program. I will go through this 
list very quickly and then be happy to answer questions at the 
end.
    We believe that we need to increase the funding for 
Superfund. That's been a part of the conversation here this 
morning. The Superfund program needs a sufficient budget in 
order to ensure that there's adequate staffing and resources 
available at the headquarters and regional offices to push 
these NPL sites to closure.
    We need to reinstate a revenue source--the Superfund tax--
to replenish the fund for the ``orphan'' sites. Again, the 
topic has come up a number of times this morning. We need to 
have the orphan fund money available for those sites where 
there are no viable PRPs to do the cleanup.
    For mega Superfund sites, the complex ones like Portland 
Harbor, we think EPA should consider breaking those sites up 
into manageable areas. Some call them operable units or some 
form of smaller areas. So you could attack the sites and get to 
cleanups sooner than later.
    And then for sites with numerous PRPs, again, focusing on 
the Portland Harbor site, we have 19 Superfund sites in Oregon 
but, obviously, Portland Harbor is the most complex for a 
number of reasons.
    We have over a hundred PRPs at that site. We recognize the 
difficulty of EPA negotiating one settlement offer with all of 
those PRPs at once. So we suggest that EPA develop tools to 
give the PRPs enough certainty that they can settle out their 
respective liabilities and move on with cleanup while 
maintaining the government's need for prudent reopeners of that 
cleanup.
    And then, finally, accommodating flexibility and cleanup 
design at each specific location. So a site like Portland 
Harbor where you got about 14 different cleanup areas each one 
will be unique.
    Our record of decision, which came out in January of 2017, 
accommodates flexibility at each of these sites. We promote 
that so that you can consider the unique conditions at each 
location and the future land use and groundwater uses at those 
locations.
    I know I am running out of time, but I am happy to answer 
questions. I have a lot of other information to talk about in 
terms of Portland Harbor, in terms of Brownfield redevelopment.
    [The prepared statement of Mr. McKenna follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Very good. Appreciate it, and thank you for 
your testimony.
    And now we'd like to turn to Ms. Debbie Mans. You're 
recognized for 5 minutes. And I am very generous with the time 
so don't feel too pressured. We can go over.

                    STATEMENT OF DEBBIE MANS

    Ms. Mans. Thank you.
    So good morning. Thank you for this opportunity to testify. 
Again, my name is Debbie Mans and I am the Co-chair of the 
Passaic River Community Advisory Group, or CAG, and the CAG 
provides advice and recommendations to the EPA and its partner 
agencies to help ensure a more effective and timely cleanup and 
restoration of the Lower Passaic River. It's a construct of the 
Superfund law.
    In 2015, our CAG won the Community Involvement Award from 
the U.S. EPA, a national award that recognizes outstanding 
achievements in environmental protection.
    I am also the Executive Director and Baykeeper for New 
York/New Jersey Baykeeper, which works to protect, preserve, 
and restore the New York Harbor Estuary, which includes the 
Lower Passaic River, and we hold the technical assistance grant 
for the Passaic River Superfund site.
    I am here today to represent the communities that have been 
harmed by the pollution in the Passaic River. The site was 
first listed on the NPL in 1984, so I think we might win the 
bets here.
    Dioxin, PCBs, metals, PHs, and pesticides are found in the 
sediment of the Lower Passaic River and the primary polluter on 
the river was a company called Diamond Alkali, which produced 
Agent Orange during the Vietnam War, and they used to shovel 
the byproduct of that production, dioxin, off the bulkheads 
into the Passaic River.
    The Superfund site now consists of 17 miles of the Passaic 
River, Newark Bay, and other portions of New York Harbor, and 
over the years the cleanup has progressed slowly along, 
primarily consisting of a constant back and forth negotiation 
between the PRPs and the EPA over sampling locations and 
methodologies, sampling results, newfangled ideas to clean the 
river, fish swaps, or recommendations to let the river heal 
itself.
    The recalcitrants of the PRPs was further amplified by the 
lack of funds to allow EPA to move forward with the cleanup 
itself due to the lapse of the Superfund tax.
    In March 2016, a record of decision was selected for the 
lower 8.3 miles of the river, the most contaminated section of 
the Superfund site and the source for ongoing contamination, 
spreading throughout the New York Harbor estuary.
    However, the remainder of the Superfund site--an additional 
9 miles of waterway upriver in Newark Bay--is still under 
investigation, and recently the Diamond Alkali Company, AK 
Upper Lower Passaic Section, was listed as a Superfund site 
targeted for immediate and intense action by EPA Administrator 
Pruitt. This is the upriver portion of the Superfund site.
    This announcement, coupled with the May 2017 announcement 
by Administrator Pruitt revising EPA's delegation of authority 
to ensure that decision making comes straight from the 
administrator to select remedies estimated to cost $50 million 
or more--and we will be over that amount--rather than the 
assistant administrator and the regional administrators gives 
me pause.
    The May 2017 memo further states that as part of 
effectuating this adjustment to the remedy selection process I 
ask that you involve the administrator's office early on and 
throughout the process of developing and evaluating 
alternatives and remedy selection. This would appear to add a 
layer of bureaucracy rather than make processes more efficient 
at EPA. Now the regional offices must involve EPA headquarters 
early and often throughout the process.
    Now technical experts at the regional offices must confer 
with political appointees based in Washington, D.C. on 
developing and evaluating cleanup alternatives and remedy 
selections per site. This makes no sense to the stakeholders on 
the ground. The people who know these sites the best are the 
local EPA technical experts who come to our community meetings 
and inspect the sites. My best guess as to why the Upper 
Passaic site is on the list of Superfund sites targeted for 
immediate and intense action is that EPA headquarters would 
like to test out adaptive management, a strategy outlined in 
the task force report for the use of an early action being 
promoted by the PRP.
    What concerns me is that the PRPs are potentially getting 
another chance to move forward with a concept that was earlier 
reviewed and rejected by the EPA due to lack of scientific 
basis and protections to public health.
    Now, under the guise of a task force report and new 
directives from the headquarters, indeed, regional staff 
recently informed us that our CAG will be updated on this 
potential cleanup proposal at our February CAG meeting and the 
proposal was also a subject of an upcoming Contaminated 
Sediments Technical Advisory Group, CSTAG, meeting in Region 
Two.
    On a contaminated site like the Passaic River it could be 
years before we understand how an early action has reduced 
public health risks and by then how will we ever bring the PRPs 
back to the table to finish a cleanup.
    One last point on the emphasis on reuse of Superfund sites, 
in New Jersey we've had for several years a private sector 
program that our state Agency delegates to private consultants 
to do cleanup of sites. It's called the Licensed Site 
Remediation Professional Program, and simply transferring a 
program like this over to sites that are Superfund sites would 
be inappropriate.
    Generally, in New Jersey Superfund sites are, as we talked 
about, the last result, and they ask the EPA to take over sites 
that are very complicated or the PRP is not cooperating.
    This LSRP program in New Jersey has actually resulted in 
less transparency and public engagement because the use of 
private consultants with less Agency oversight results in less 
public participation and transparency.
    So I have the rest of my information in my written 
testimony. Thank you again for this opportunity.
    [The prepared statement of Ms. Mans follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    And now we'll turn to Katherine Probst, independent 
consultant. You are recognized for 5 minutes. Thank you for 
being here.

                 STATEMENT OF KATHERINE PROBST

    Ms. Probst. Thank you very much, members of the 
subcommittee, and thank you for inviting me to testify before 
you today.
    My testimony today is going to focus on three issues 
improving the effectiveness of the Superfund remedial program, 
estimating the funding needs for the Superfund program, and the 
Superfund task force recommendations.
    The first question that must be asked, and this has already 
come up many times today from both Republicans and Democrats, 
is why does it take so long to clean up sites on the NPL? It's 
a great question and it's really sad we don't have any answers. 
At the end of fiscal year 2016, there were 441 nonfederal NPL 
sites that were not yet construction complete.
    Just over 40 percent of these sites were added to the NPL 
before fiscal year 2000. Some have been on the NPL since 1983.
    EPA needs to conduct an objective analysis to determine why 
these sites are still not construction complete in order to 
develop effective program reforms.
    Is the obstacle lack of funding, PRP inaction, bureaucratic 
morass, technical challenges, or something else? Until we know 
why these sites are taking so long, we really can't develop 
solutions.
    And if it's worth noting that more than half of remedial 
actions at NPL sites are PRP lead. Much more attention needs to 
be paid to whether at some sites PRPs are in fact responsible 
for lengthy cleanup durations. Second, the Agency needs to 
determine why there are still NPL sites where human exposure is 
not under control and what can be done about it.
    The most important goal for the remedial cleanup program is 
to protect public health. Yet, at the end of fiscal year 2016, 
there were over a hundred nonfederal NPL sites where human 
exposure was not under control and at another 150 sites there 
was insufficient information to determine if it was under 
control or not.
    This issue should be the top priority of the Superfund 
program. Interestingly, the July 25th, 2017 memo from 
Administrator Pruitt directs senior staff to ``Prioritize and 
take action to expeditiously effectuate control over any site 
where the risk of human exposure is not fully controlled,'' and 
to provide a report that identifies these sites and describes 
where such risks are expected to be controlled within 60 days, 
which I think would have been the end of September.
    No information on this effort has been made public. To 
address this pressing issue, EPA should issue a report lifting 
all nonfederal NPL sites where human exposure is not under 
control or whether there is insufficient data to determine if 
it is under control and detail what steps are needed to address 
potential exposure and when these actions will be implemented.
    Some have suggested there is little or no need for a 
federal cleanup program and that the program should be 
delegated to the states. Yet, few if any states have the 
financial resources to pay for the cleanup of an average NPL 
site, much less a mega site with costs of $50 million or more.
    In fact, states have increasingly raised concerns about 
their ability to come up with the funds to cover the state cost 
share for fund lead actions at NPL sites. To address this 
issue, EPA should commission an independent analysis of the 
financial resources and NPL cost burden for all states and 
territories that have NPL sites.
    As Congress seeks to improve the Superfund program, one key 
question, which again has come up this morning is whether the 
program is receiving adequate annual appropriations to 
successfully carry out its responsibilities.
    EPA is not provided a public estimate of future funding 
needs to implement the program for many, many years. Congress 
should require that EPA issue an annual estimate of future 
costs of completing work at all nonfederal sites on the NPL.
    EPA should also develop an estimate of the amount needed 
for a PRP reserve fund. One of the important tools for EPA to 
get PRPs to agree to pay for and implement cleanups is the 
threat that if they don't EPA will do so and then seek cost 
recovery or, potentially, treble damages.
    For this threat to be real, EPA needs to have a sizeable 
reserve fund to draw on, which is not the case. EPA should also 
investigate the potential savings of an optimal cleanup funding 
approach.
    Given the very real constraints on annual EPA funding for 
site construction, which was only $187 million for fiscal year 
2017, it is almost certain that site cleanups are not funded in 
an optimal manner.
    This results in work at some sites being spread out over 
many years, likely increasing total costs. If an analysis of a 
different funding approach showed substantial cost savings, 
Congress could consider whether a few years of surge funding 
would be worthwhile as a mechanism to get some of the more 
expensive NPL site completed faster and at a total lower cost.
    Finally, as you know, in July EPA issued a Superfund task 
force report with 42 recommendations. As of yesterday, there 
has been no public information on the implementation status of 
any of the recommendations except for the release in December 
of the list of the 21 sites targeted for immediate and intense 
action, and yesterday the release of a list of 31 sites with 
high redevelopment potential.
    Congress, the public, other interested parties and, most 
importantly, residents living near NPL sites have no 
information on the status of the many task force 
recommendations nor on the impact of these recommendations on 
the day-to-day operations of the Superfund program.
    Neither has there been any information on exactly what it 
means to be included on the list of 21 sites targeted for 
immediate action.
    The lack of transparency is staggering.
    Thank you for asking me to testify before you today. Be 
happy to answer any questions.
    [The prepared statement of Ms. Probst follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [The attachments to Ms Probst's statement can be found at: 
https://docs.house.gov/meetings/if/if18/20180118/106783/hhrg-
115-if18-wstate-probstk-20180118.pdf.]
    Mr. Shimkus. Thank you very much, and I will recognize 
myself 5 minutes for the members' questioning.
    And Mr. Cobb, in your written testimony you note that the 
national contingency plan should be updated and you 
specifically suggest perhaps the national contingency plan 
should be revised to apply separately to cleanups funded by 
potential responsible parties, or PRPs, versus cleanups paid 
for by the federal government.
    Can you walk us through your suggestion for updates to the 
national contingency plan? And if you can do it quickly. I want 
to try to get to as many people as I can.
    Mr. Cobb. Yes, sir. I will be glad to.
    Yes. First, the NCP was written almost 35 years ago. We've 
learned a lot since then. We need to update it for the lessons 
that we've learned, and recognizing the difference between PRP-
led cleanups and fund-led cleanups, recognizing that we have 
many PRPs who now get it, wwho want to be able to resolve their 
issues, want to be able to move forward and conduct cleanups, 
yet the NCP was written as though every site was going to 
litigation, every site was going to cost recovery. So it is 
very detailed.
    We need to make a difference there to enable sites and 
facilities that want to resolve their issues to be able to move 
forward quickly. That provides a greater incentive to encourage 
more sites to do that and still reserves the detail for those 
sites that need to go through the trust fund type cleanup and 
cost recovery.
    Mr. Shimkus. And I appreciate that. And for the panel as a 
whole, just as a statement, and I am not sure where we as a 
committee can get to--I think a lot of you have raised the 
issue in observing us, we are frustrated, it takes too long, we 
are looking for recommendations, and if we as members could 
eventually decide on what the solution to that goal is 
together, we maybe start writing something that would help 
update some of these records and files and timelines and stuff.
    So I would encourage a continued dialogue with us as we 
move forward.
    Back to Mr. Cobb. Do you--and part of this debate is do you 
think--and it was raised by other panelists, do you think that 
certain authorities under the Superfund act could be delegated 
to states?
    Mr. Cobb. Yes. As I stated in my written testimony, I think 
that where responsible parties are willing and able to go 
forward with cleanup, states certainly have the expertise and 
the capacity to be able to do that.
    The advantage of that is it doesn't take away from EPA's 
actions under fund-led cleanups. In fact, it enhances them 
because it removes some of the decision making and technical 
bottlenecks that we see of everything going through the federal 
project managers through the federal decision makers and freeze 
up resources to be able to move sites faster through the 
process.
    Mr. Shimkus. And I don't know if it was Ms. Mans, Ms. 
Probst--someone mentioned this. Ms. Mans, with your Passaic 
River issue, is there a problem with a proposal that some 
Superfund responsibilities be delegated to the states?
    Ms. Mans. Well, the Passaic River--there's a close 
partnership with the states for that cleanup. It's one of the 
largest and most complicated in-water Superfund sites in the 
country. So I don't think that's an appropriate site to do 
that.
    The State of New Jersey has a lot of expertise in cleaning 
up contaminated sites.
    Mr. Shimkus. So is it fair to say that states wouldn't want 
a huge one maybe like the Portland area, but smaller ones that 
can be managed, Mr. McKenna?
    Mr. McKenna. Yes. I think this is one of those issues where 
it's really state-specific and site-specific.
    In Portland, we have the Portland Harbor Superfund site, 
which is about 11 miles, and EPA is the lead for the in-water 
cleanup there. The State of Oregon is the lead for the in-water 
sediment cleanups immediately adjacent and immediately upstream 
because we need to control those----
    Mr. Shimkus. Because when I toured it, there was one site 
that was relatively remediated by the state----
    Mr. McKenna. Right.
    Mr. Shimkus [continuing]. Where all the surrounding areas, 
in essence, were not, if I remember that.
    Mr. McKenna. That was McCormick and Baxter, which is a 
separate Superfund site and which it was an orphaned site, 
federal funds and the state implemented the cleanup there.
    The state also implemented the cleanup at sediment sites 
immediately upstream of the Portland Harbor Superfund site and 
in that area where there were multiple cleanup sites, they 
dealt with each one separately and the PRPs of those sites 
separately, and they've actually got the cleanups done at the 
same cleanup goals as Portland Harbor. But they're actually 
done as opposed to the continuing work that's going on at 
Portland Harbor.
    So I think there are ways and we are happy to sit down with 
anyone and talk about the lessons learned and some of the 
progress we've made in those areas.
    Mr. Shimkus. Thank you. And Dr. Porter, I don't have time 
for a question but I appreciate your blunt straightforward 
analysis and we look forward to working with you on ways if we 
get a decision to try to move forward on trying to at least 
clean up the process legislatively.
    So I will yield back my time and turn to the ranking 
member, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Mans, as I mentioned, I've been very concerned with 
transparency, the Superfund task force process and the 
development of the administrator's targeted list.
    Did anyone at EPA engage with you before the Diamond Alkali 
site appeared on the administrator's targeted list?
    Ms. Mans. No. We actually, subsequent to the listing, 
requested a meeting with the regional administrator, Peter 
Lopez, and we just met with him last week to ask more. We 
didn't really get much more information about what it means.
    Mr. Tonko. And are you going to continue to pursue to get 
information on that?
    Ms. Mans. Yes, we will. I mentioned we are anticipating a 
proposal by the PRPs for that cleanup for that portion that was 
put on the list next month and then we'll have to turn around 
and provide technical comments on that on behalf of the 
community for the CSAG meeting on March 1st.
    Mr. Tonko. For a little more clarification here, did EPA 
give any explanation to you as to what it means to have the 
site on the list?
    Ms. Mans. No. They were as helpful as they could be but it 
was just different variations of the word intense and 
immediate.
    Mr. Tonko. OK. People can accuse me of cynicism if they 
want but I do believe that this is a strategy for generating 
future press releases more than actually working toward 
remediating sites for the standard of protecting human health 
and our environment.
    So Ms. Mans, can you explain the role that local 
stakeholders play in making a remediation successful?
    Ms. Mans. Sure. Our CAG is very highly educated. We've been 
meeting since the fall of 2009 almost on a monthly basis, and 
we've done everything to provide advice on the community health 
and safety plan, the job training program. We created local 
jobs at our request on emergency action there or initial 
cleanup and as well as provide, like I said, technical advice 
to the----
    Mr. Tonko. And how important is that engagement within buy-
in from the local community?
    Ms. Mans. It's the most important thing you can have at a 
Superfund site. When the EPA announced the March--in 2016 ROD 
we had both senators, every single congressional representative 
in the region, the community, the mayor, all standing up to 
support that decision and that's what made the difference.
    Mr. Tonko. Well, I will not argue with Dr. Porter--that 
many cleanups could happen more quickly and more cost 
effectively. But I really do believe a well-funded EPA is 
critical to get these cleanups done.
    Ms. Probst, has a lack of EPA funding caused a delay in 
starting some cleanups?
    Ms. Probst. Well, as Barry Breen mentioned, we know from 
EPA's own data, I think it's 14 of the last 17 years they've 
had to delay remedial actions that are--you can document that.
    I think it's fair to say that if you listen to Mr. Carter 
or anybody who has a site, sites are taking a long time. One 
has to assume that the lack of actual funding for construction 
is causing EPA to spread things out over multiple years.
    That is much harder to capture. So all we know is the 
specific actions that have been delayed. But you have to assume 
that if you only have $187 million, which I would love to have 
personally, but is not a lot money for this program for 
cleanups, for construction, that things are being parceled out 
over years.
    So we don't know exactly how much but I think it's fair to 
say it contributes to the delay.
    Mr. Tonko. And can you explain how EPA needs both 
enforcement and cleanup resources in order to ensure 
responsible parties remediate these sites?
    Ms. Probst. Sure. Although I am not a lawyer but, the 
enforcement program the whole goal is that the responsible 
parties will actually pay for and implement cleanups 
themselves. In theory, they see that as an advantage because 
they assume they're more efficient than EPA, although one 
actually doesn't know that. But it's in their interest to have 
more control.
    So under the enforcement program, and usually we are 
talking settlements here, EPA works with responsible parties 
and the implement, as Barry said, I think, we think it's 60 or 
70 percent of remedial actions.
    The other thing that's important that I mentioned in my 
testimony is EPA being able to step in if there's a site that 
has been sitting there for 5, 10, 15, or 20 years and the 
responsible party isn't doing anything, and there are at least 
two of the 21 sites on the lists that it clearly says the PRPs 
have been sitting on this site.
    The idea is that EPA should have the funding to go in there 
and say OK, PRP, there's been this remedial action ready to go 
for 3 years or 5 years--you're dragging your feet--forget it, 
we are going to implement. That's part of the program.
    Mr. Tonko. And just quickly here, Ms. Mans, I mentioned the 
issues facing the Hudson River this morning. It is clear how 
important it is to get the remedy right the first time. Can you 
explain how an insufficient assessment for sampling or 
modelling or an incomplete cleanup will make it more difficult 
to make sites protective of human health and bring responsible 
parties back to the table?
    Ms. Mans. Well, if you move forward with that type of 
thing, I don't see how you can bring them back to the table, 
especially years later for, like, a sediment thing site when 
you only then figure out decades later that the fish are not 
getting healthier and you're not reducing the cancer risk.
    The ROD that we have now is a bank-to-bank dredging and we 
look to what happened at the Hudson River with just the hot 
spot removal as informing us about what should be happening for 
that river, and that's what concerns us about the upper river 
and that maybe they'll try hot spot removal.
    Mr. Tonko. Thank you so much.
    With that, I yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back.
    The chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Dr. Porter, I want to echo the comments of the chairman. I 
find your testimony to be quite refreshing and I appreciate 
that, and I want to associate myself with you that I think it 
takes more than just throwing money at a problem to cure it. So 
often up here in Washington we think that's the cure. If you 
can get enough money to it, then it's going to be solved. You, 
obviously, don't adhere to that advice, although agreed that we 
probably do need to do better than what we are doing.
    I wanted to ask you, you have also, in your testimony I 
noticed that you said that nearly a $100 billion that EPA has 
spent in public and private funds really is not proportional to 
the amount of work that's been done.
    You mentioned in your testimony the need to move the site 
remediation decisions to the key subordinates of the secretary. 
Can you elaborate on that? Is that going to help? Is it going 
to make it more timely? How is that going to work?
    Mr. Porter. Well, I think you have got a very important 
project here where you have got to get people who--the key 
people are the administrator, who spends some time out, and I 
am very happy the administrator at least is putting focus on 
this thing. I have not seen too many of the administrators 
spend this much time on Superfund. So that in itself is kind of 
interesting.
    But below that, you have got my old job, which is the 
national program manager who can actually make remedy 
decisions, him or herself, and you've got the ten regional 
administrators and you've got the Superfund chiefs in the 
region. They're all important.
    So I think it's important. Frankly, I am very disappointed 
in recent years or quite a few years actually, that the 
management of the projects has been sitting lower and lower and 
lower at EPA. More and more committees, more and more whatever.
    So I think that's important. I also want to point out that 
the remedy itself is critical. I've seen sites with a $50 
million remedy, $800 million remedy, or $2 billion remedy. And 
the $500 million is 5 times as good as the 10 or the 20. 
They're just different. For example, the comment just here 
recently about--and I am familiar with all these sites--of the 
Passaic River and the Hudson or whatever and maybe hot spot 
removal is better than wall-to-wall dredging of the river, 
which is billions of dollars.
    And so I think it's important, as you have a lot of 
judgement for it, and by the way, the first thing in the 
statute of this law--back to Mr. Dingell's day--is that the 
president shall pick, meaning people like me, the president 
shall pick a cost-effective remedy. That means a good remedy 
has not another criteria that go in there.
    And so I think it's very important to have the people at 
pretty senior things--mainly at the region. I want the region 
to go as far as they possibly can. Most sites they can handle. 
But when they can't handle the site or they want help, 
someone--like in my old job--has got to get in there and help 
them and, frankly, I might even say I think we ought to do 
this.
    I had lots of time in the early days of Superfund of having 
regions come in and talk to me about that we are going to--
here's the site we're going to do, and I won't get in a lot of 
detail. But I will say, I would ask them the following five or 
six questions.
    For example, real simple, you say EPA is going to do this--
well, you do know that Mr. Dingell, et cetera, put in there, 
which is good, that the state shall pay--if EPA has to pay for 
it, the state has to pay 10 percent. Does Oklahoma have 10 
percent, just to pick a name at random?
    And the answer often is no. So you have to be careful and I 
would say, well go back to the remedy and the PRPs will do it. 
Well, they'll do it. They'll do the $80 million remedy but they 
won't do the $90 billion remedy. Had nothing to do with the 
cost. It's just they'll go to court on that. You can ask the 
people in the area, well, do you want the $90 million remedy or 
the $80 million remedy--no, we don't want to be moved out of 
our houses. I think of that Love Canal as a good example of 
things. That kind of dialogue would happen all the time.
    So it takes a lot of judgment of these nine criteria and 
that judgement needs to be held pretty high and the reason I am 
telling the president or anybody else who will listen, get my 
old job filled with a full time person who has a lot of savvy 
and help you and help the regions and help everyone else, 
Democrats and Republicans, because the remedy itself, I've seen 
sites all over the place where you're going along thinking it's 
$200 million or $300 million, next thing you know it's a 
billion. And that doesn't mean it's good or bad. It's just 
let's think, guys. The law says you pick a cost-effective 
remedy and a bunch of other things. So what we don't need is a 
bureaucracy. What we now have is a lot more bureaucracy than in 
my day.
    Mr. Carter. Let me just really quickly, Dr. Porter.
    So do you believe states ought to have more authority or 
less?
    Mr. Porter. Yes. In my written testimony I think one of the 
things I said looking down the road a ways I think the states 
should do most of this work.
    I've looked at a lot of sites around the country and what I 
find in general the states--for similar sites, not a bad site 
and a not so bad site--but those kind of sites that the 
``good'' states that had really good programs are usually about 
a third of the cost and much faster.
    Mr. Carter. OK. But Ms. Probst, you mentioned in your 
testimony that you didn't think the states could do it or 
they're not qualified, they don't have the money, or what?
    Ms. Probst. I think we are talking a little bit vaguely.
    Right now, there is nothing that precludes states from 
cleaning up sites that are on the NPL and if you listen 
carefully to the testimony from Mr. Cobb they want the states 
that don't involve a lot of funding. They want the PRP lead 
sites.
    So I don't really know what's being recommended. There's 
nothing that precludes states--a site only gets on the NPL if 
the state concurs. That's not legal but that's basically the 
policy.
    So it's not that EPA is adding sites to the NPL without 
state agreement. So I am not actually sure what's being 
recommended. But it is true that states don't have a lot of 
financial capability. They're upset about the 10 percent cost 
share.
    So I think that whatever recommendations you get on the 
states it needs to be clearer. I don't know what's being 
recommended here. And so I don't know if they want more NPL 
sites or what they want.
    Mr. Carter. Right. Well, thank all of you for your work, 
and I yield back.
    Mr. Shimkus. Yes, excellent work.
    The chair now recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I just want to say I am happy to have Debbie Mans here 
because she's really a fierce advocate for the environment in 
New Jersey and has a wealth of experience with the Superfund 
program.
    But I wanted to follow up, Debbie, on the issues raised by 
Mr. Tonko. I have several Superfund sites in my district and 
stakeholders and those sites have called me to ask why they 
weren't included on the list. I know we have many lists now. 
And they wonder if that means their sites are now headed to the 
back of the line.
    As I stressed in my questions to Mr. Breen, the focus of 
the Superfund program has been and should remain protecting 
human health and the environment.
    Obviously, you agree with that, yes?
    Ms. Mans. Yes.
    Mr. Pallone. OK. But let me ask you, do you have concerns 
that the recent EPA actions have the potential to shift EPA 
attention and cleanup funds away from the riskier sites?
    Ms. Mans. I think in the current state of almost a third of 
the budget being cut at EPA, what's going to happen is that you 
just can't do more with less.
    And so yes, priorities will be shifted and choices will 
have to be made and I think inevitably it will result in 
slowdowns at other cleanup sites.
    Mr. Pallone. OK. Now, I am particularly concerned about 
yesterday's publication of the list of Superfund sites with the 
highest potential for economic redevelopment, which is a factor 
that is not really relevant to the risk posed by the site.
    The Passaic River was or was not on that last list?
    Ms. Mans. I am still looking at the list on December 8th so 
I am not sure.
    Mr. Pallone. OK. All right. So, but of course, my 
understanding is that--the Passaic River is not going to be 
redeveloped for industrial use. So, that doesn't make the 
cleanup less important.
    Ms. Mans. Right. In the Passaic River, the community has 
been perfectly clear what they want to see for the river. They 
want waterfront parks, boat ramps, habitat, clean water where 
if you catch a fish or a crab you will not get cancer or that 
it's illegal to do that.
    That's what the community wants for their river.
    Mr. Pallone. Yes, and as you say, the community often is 
the most knowledgeable. I am not saying they're the only factor 
but certainly the most knowledgeable.
    But then, it's not true that because the site may not be 
redeveloped that there aren't significant economic benefits 
from doing the cleanup, right? You still see significant 
economic benefits to what you're proposing, even if it's not 
redeveloped.
    Ms. Mans. Right. The proposed cleanup of the lower 8.3 
miles include a channel, which has not been dredged for 40 
years. So we we took commercial interest into account for the 
cleanup.
    But yes, there is a new waterfront park in Newark. The 
third phase was just opened last month. That's what's going to 
drive revitalization in our communities is places where people 
want to go open space and where businesses know that will 
attract their employees.
    Mr. Pallone. See, that's my concern. In other words, you 
have a site that will be cleaned up, it will be much more open 
to recreational uses. It won't be primarily focused on 
manufacturing.
    But that's the very thing that actually may bring more 
people and economic activity to Newark or to the area. That's 
essentially what I think you're saying.
    Ms. Mans. Yes.
    Mr. Pallone. I don't have a lot of time. So I just wanted 
to ask one more thing.
    You raised it in your testimony and this comes up all the 
time, that recent actions by the EPA could undermine the 
quality of the cleanups done, OK.
    Can you explain why you feel the recent EPA recommendations 
and targets could lead to weaker or less effective cleanups?
    Ms. Mans. We'll find out more about this next month at the 
CAG. But our understanding is that the PRPs plan to propose a 
cleanup for the upper 9 miles. That sounds like it will be a 
hot spot removal. Sounds a lot like their prior proposal for 
sustainable remedy that was earlier rejected by the EPA when we 
were looking at alternatives for the cleanup.
    So it's a big concern and the directives from the 
headquarters at EPA, not the regional staff, which have been 
really amazing, leaves us with concern.
    Mr. Pallone. See, my concern is that this task force report 
and the substantive targeted list could lead to inadequate 
cleanups and not robust cleanups that are really protective of 
human health and the environment, and the mission of the 
Superfund program is to protect human health and the 
environment.
    So if you do these meaningless cleanups that don't actually 
address that then we are not accomplishing----
    Ms. Mans. We don't have a Superfund program. Yes.
    Mr. Pallone. Right. All right. Thank you so much. I 
appreciate you being here.
    Mr. Shimkus. Gentleman's time has expired.
    The chair recognizes the gentleman from Michigan, Mr. 
Walburg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here.
    Mr. Cobb, in your written testimony you discussed the 
modernization of the correction action program of the Resource 
Conservation Recovery Act that happened in the 1990s.
    What could be learned from that process that can be applied 
to modernization of the Superfund today?
    Mr. Cobb. Mr. Walberg, I believe what we can learn from 
that process is many of the things that I outlined in my 
testimony about enabling sites with facilities that understand 
their liability now and want to resolve it, enabling them to 
move forward.
    Back in the 1990s, 2000s, I was actually one of the voices 
against that kind of action because I believed that the more 
prescriptive requirement that RCRA was using up until that time 
worked to our benefit.
    I am happy to say today that I've been proven wrong on that 
because as RCRA was redesigned to be more flexible and allowing 
sites to move forward in targeting interims actions such as Dr. 
Porter described earlier and making quicker decisions, we've 
been able to get more sites cleaned up faster.
    Facilities have recognized that if they're willing to work 
with us they can get through the process faster and more 
economically and still arrive at a very protective cleanup.
    Mr. Walberg. And so that's the enabling you're talking 
about?
    Mr. Cobb. That's the enabling, yes. We have to recognize 
that, as Mr. Breen testified earlier, only about 30 percent or 
so of the sites on the NPL require fund leave activity. Most of 
them are PRP leave. And there are many other sites that are not 
on the NPL that are also conducted as CERCLA cleanups.
    Currently, the way the statute is written, all of those 
decisions, all of that review, is under EPA authority. None of 
it is delegable to the states although the states work 
cooperatively with EPA on those things.
    What I am proposing is that by opening that up and giving 
states a broader role that we increase the through-put capacity 
of the program we enable sites that want to move forward to 
move forward and get cleanup done and then we are able to focus 
more resources on those recalcitrants sites or the orphan sites 
and be able to apply the full force of the Superfund liability 
scheme on those sites, which creates a greater incentive for 
sites to come forward voluntarily to help us out.
    This has worked and we've been able to move thousands of 
sites through the process much more quickly and I believe it 
will work in the Superfund program as well.
    Mr. Walberg. So it's not a fix-all but it does narrow the 
scope. We think of the Gelman site, for instance, which seems 
to drag on.
    Mrs. Dingell. And on and on.
    Mr. Walberg. And on. Can we start this song together?
    That would be one where we are not seeing that efficiency, 
speed, and creativity in completing the process.
    Mr. Cobb. That is correct, and if I could venture to say 
that has has been discussed by the committee, there are issues 
with cleanups being funded limited.
    But one of the things we in the states have learned through 
the years is that we've got to streamline our processes. For 
those things that we do and do well, we've got to make those as 
efficient as possible to be able to wisely use the funds that 
we do have and then make sure we have the available funds to do 
the work we need to do.
    Mr. Walberg. And then make sure the states have the funds, 
and I think that is a crucial point we have to remember up 
here.
    Thank you.
    Dr. Porter, what are some actions EPA could take to improve 
Superfund cleanup program? Either changes to the statute that 
need to be made and taking in consideration of making them more 
effective and efficient?
    Mr. Porter. Yes. I think one of the things to think about 
is in my statement I believe I mentioned three things that 
might be worthy of legislation. One is to actually increase 
funding of the removal and early action programs because we've 
done thousands and thousands--we, EPA--of actual short-term 
things.
    So what I am saying instead of having a million dollars 
that you can go out and pick up barrels or whatever, just make 
it $3 million or $4 million, because those are very effective.
    First off, you do things directly like picking up barrels 
or whatever. You learn a lot for the next step, and we at EPA 
tend to do is we go on and on and on, thinking about every 
conceivable thing.
    There's a lot of sites where a company may come forward, I 
will spend a $100 million or $20 million or $10 million on this 
fairly quickly. People have done that. They offered to do 
things in other places. And that often just ends up in lots of 
dialogue forever and ever and never gets done.
     The second thing I did, unlike Mr. Dingell in his day, and 
I was very supportive of the statute, that statue many years 
ago, has a lot of starts. You shall do 250 studies, you do 513 
of this. We met all those. That was fine. I want to see things 
that are ending like, for example, how long will it be before 
you have a remedy--you're starting the site, put it on the site 
and--by law and you can always tweak it a little bit if you're 
the top person. In 2 years you shall have a remedy or maybe 
it's like in 1 year I would like to see a new statute to say 
after 1 year the EPA needs to tell us what do the likely 
remedies look like or what are the things you can do 
immediately.
    So I think there's things like that you could do.
    Mr. Walberg. Well, thank you. Thanks for the pertinent 
advice.
    Mr. Porter. Everything--there's a date on it.
    Mr. Walberg. Yes. Thank you. I yield back.
    Mr. Shimkus. Gentleman's time has expired.
    The chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    EPA's recent recommendations for reforms in the Superfund 
focus on sites with viable responsible parties without paying 
much attention to the orphan sites that need public funds to be 
cleaned up.
    In fact, when Administrator Pruitt was here last month he 
told us that there weren't really very many orphan sites and 
they didn't require a lot of funding. I've asked him to provide 
an exact number of how many orphan sites are on the NPL for the 
record of last month's hearing but I am still waiting for that.
    A good example, we have a huge one that has a responsible 
party, but in the Houston area in southeast Texas we have a 
number of them. One of them is in our district. It's an oil 
tanking facility that's been there for at least many, many 
years and there is a responsible party but they've absconded. 
They went to Latin America somewhere. So that would, I hope, be 
included in an orphan site because it's EPA staff working on it 
as best they can.
    Ms. Probst, what has been the coincidence of this sharp 
decline in the funding for the Superfund cleanup since the year 
2000?
    Ms. Probst. It's really hard to tell, frankly, without 
doing any analysis. I don't really have an answer and I guess I 
would just say that, one of the things that has plagued the 
Superfund program for a very long time--it's not just this 
administration--again, there hasn't been how much funding they 
need. There hasn't been an effort to pinpoint what the problems 
are. If you don't pinpoint what the problems I don't care who 
you are, you can't solve them.
    So I actually can't tell you because numbers--like the 
number of sites, well, sites are heterogeneous. There's a $5 
million site, there's a multiple hundred million dollar site.
    So it's a very good question and I can't give an answer.
    Mr. Green. Well, and that's many administrations, not just 
the current one or previous but since 2000, and I've been out 
on that site and this is just barrels of toxic substances, 
crude oil mainly, sitting out in the rain rusting and every 
once in a while they'll come in and move some of them. But 
they're still at the site and that land is fairly valuable both 
for industrial or commercial purposes where it's at.
    Do you believe that the funding for cleanups of orphan 
sites is an essential component of the Superfund program?
    Ms. Probst. Absolutely. And can I just say one thing about 
that? It is true that only some percent are orphan sites. But, 
again, you need the threat of bringing things back from 
responsible parties and the numbers flip in terms of the 
percent that are done by the fund in the earlier stages. The 
RIFS, the site study stage, tends to be done by EPA to get 
things moving.
    So it's not that a PRP site has no direct costs to EPA.
    Mr. Green. OK. And Ms. Mans, do you agree?
    Ms. Mans. Yes.
    Mr. Green. When you were talking, by the way, the recovery 
there, that one site that we are working on still that was a 
dioxin facility, people are still crabbing and fishing off of 
that, and I wish we could turn it into a touristy place.
    But I have an industrial area and I think what'll take over 
there is a barging operation because that's the growth in that 
area--the San Jacinto River there were it enters the Houston 
ship channel.
    Ms. Probst and Ms. Mans, is the federal funding also 
essential for sites with the responsible parties because it 
allows the EPA to move ahead with cleanups where the 
responsible parties are hesitant, let's call it?
    Ms. Probst. Yes.
    Mr. Green. OK. Also, what do you believe would be the 
consequences if EPA's budget request last year for drastic cuts 
in Superfund enforcement accounts were to go into effect?
    Ms. Probst. Well, that just means everything is going to be 
paid for by the taxpayers. If you don't have enforcement--you 
don't PRP lead sites, what you're saying is that all your sites 
are going to be paid for by the federal government.
    Mr. Green. OK.
    Ms. Mans. Just on some numbers--we were crunching them--the 
Trump administration proposed cuts to the Superfund program of 
25 percent nationally, which would result in the loss of 536 
staff slots.
    Mr. Green. Well, and Mr. Chairman, I have other questions 
but I know it's time for us to leave. But it's frustrating that 
what we see that our own budget process now--that how do we run 
the Department of Defense, much less EPA, with what we are 
doing now. But I yield back my time.
    Mr. Shimkus. Thank you. The gentleman yields back the time.
    The chair now recognizes the other force of nature on the 
committee, Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. I've behaved today.
    It's great to see all of you and I thank you for sitting 
here. And Dr. Porter, I will tell the other Dingell that you 
referred to him many times today. It'll make his day.
    But I, again, am going to go off script. But Dr. Porter, 
you were talking about how we should have remedies. But when we 
do remedies in the timeline, do we have the cost associated 
with them?
    One of the things that I've really learned it is taking far 
too long to even make the National Priority List when you know 
someone should be on it. Do we have the dollars we need to--
when you try to put that timeline on a remedy?
    Mr. Porter. Yes. I think so. I think there's such a broad 
range of things. For example, a lot of the sites you're talking 
about that should be on the list or not be on the list, I am a 
big believer in putting a fair amount of money into well, what 
about when you go out and deal with it this afternoon?
    We've done thousands of things where someone has something 
that you could do fairly quickly. The other big thing----
    Mrs. Dingell. So why can't we do that? Because it's become 
such a bureaucracy.
    Mr. Porter. Yes. I don't think it's so much bureaucracy. 
The guy that did a great job was Tim Fields. He was the Clinton 
administration. He came out of the removal program. He had my 
job a few years later.
    Tim was sent a million dollars here, $2 million here, $5 
million there. I would OK a lot more sometimes than we had to, 
and he would cleanup sites.
    Now, obviously, if something is going to be $500 million, 
it takes a little longer. But I think there's a lot of ways to 
be more creative. I would like to see more money put in these 
more straightforward projects where you can just go out and do 
it because there was a guy--just really quickly--a guy in 
Region 4, for a long time back in the old days we had six 
cleanup sites, so the worst post every day. I had one guy clean 
up six in 3 months.
    When I told the 10 regional administrators, got to get all 
the six cleaned up back--way back when. One guy goes back to 
Atlanta and he did six sites by himself, so to speak. And the 
reason he did it, he was creative.
    He said, well, first off, I am not going to bring the Army 
Corps of Engineers in here because we can do this with a 
removal program, and on and on and on.
    So I think there's a lot of creativity you can use, and 
sometimes maybe a little constraint of money is not all bad. 
But I want to see people that can actually think hard about 
what's a better way to do it.
    All these sites, as you may have heard me say earlier, they 
have huge, a big site, I worked in my practice the Department 
of Energy--I had a $100 million remedy and a $9 billion remedy.
    Well, one of the nine criteria here you have the pick an 
implementable site. It's not implementable to get Congress to 
get $9 billion. I am just making this up, but not totally.
    So I think it may well need more money. But I would like to 
see more money thrown where it's going to do some good because 
let me say really quick----
    Mrs. Dingell. OK. Because I got to ask Dr.----
    Mr. Porter. You can take out a lot of money of this budget 
by not doing stupid things--excuse the expression--like Remedy 
Review Boards that go around and take all kind of time 
reviewing things that the region should have done.
    Mrs. Dingell. OK. So let me go to Ms. Mans and Ms. Probst 
at the same time. So an analysis by the Government 
Accountability Office found that only 27 percent of the new 
remedial action projects were funded in fiscal year 2013 
compared to 100 percent in 1999.
    Could both of you answer, Ms. Mans and Ms. Probst, can you 
highlight some of the serious consequences we face both in 
terms of public health and the environment if we don't fund 
these Superfund programs annually at a robust level or if it 
keeps going, significant cuts?
    Ms. Mans. Well, yes. Thank you. I just want to say I did 
hone my advocacy skills in your district, born and raised.
    Mrs. Dingell. I know. I was going to tell--and her cousin 
was John Dingell's--unfortunately, he died 2 weeks ago. But 
George Mans was a great man.
    Ms. Mans. So, our public health is at risk. We had people 
coming down to the river and catching fish and crabs that have 
dioxins in them, and it's unacceptable. And that's what we are 
dealing with.
    Ms. Probst. Yes. Again, I think it's really informative to 
look at the very limited amount of money that actually goes to 
cleanup in the Superfund budget.
    So when you're talking about these cuts and--I am very 
grateful I don't live near a Superfund site. My daughter lives 
sort of near the Gowanus site. I am a little bit less grateful 
about that.
    But I think, it's easy for us who aren't living near these 
sites. But if you are living there and if you have children or 
if you do subsistence fishing or if you want to walk around New 
Bedford Harbor, which there's no way to enforce institutional 
controls--I assume all the contaminated waterways are that 
way--there are over a hundred sites where human exposure is not 
under control and there could be 250 sites where there are 
human exposure and not under control.
    Mrs. Dingell. And local communities are being hurt by this.
    Ms. Probst. And local communities are therefore at risk. 
The first thing the administration ought to do is put out that 
list of sites which you can do from the website. But that 
should be the top priority.
    Mrs. Dingell. I am out of time but--and he was going to 
give me more but I know it's--what I want to say is I hope 
we'll all work together. My colleague, Mr. Walburg, works with 
me on this--the dioxin plume, which totally gets caught up in 
bureaucracy between two communities with a Superfund site. Two 
communities are in court. It's been--and it's been 50 years and 
it's ready and it's not getting cleaned up.
    Like, yesterday the Supreme Court upheld that the original 
polluter has to maintain responsibility. But it's the local 
communities that are--and people who were scared about what's 
going to happen.
    So I hope, Mr. Chairman, and my other remaining colleague, 
we can all work together to make sure we are getting robust 
funding and it's a priority for all of us in this country.
    Mr. Shimkus. Well, I thank the gentle lady and, of course, 
it's been a good hearing. But before we dismiss this panel, 
obviously, Chairman Walden is from Oregon and Congressman 
Schrader is a member of the full committee. Of course, I got a 
chance to go out to Portland and tour that site about a year 
ago.
    So everybody else had multiple things to be able to say and 
we wanted to make sure that we'd given you a chance, based upon 
what you have heard to weigh in any response to some of this 
debate.
    Mr. McKenna. Well, Mr. Chairman, I truly appreciate that.
    A couple things. One, I think when you talk about state 
involvement and leveraging some state resources, I think it's 
definitely worth looking into. But I think we have to evaluate 
that under two different buckets. One is if you have a site 
where there's no money for the cleanup and public moneys need 
to be spent first and then seek reimbursement through legal 
action. That will be very difficult for a state like Oregon to 
take on a site like Portland Harbor that's a billion dollars 
plus and take on that risk.
    But at Portland Harbor, we have the PRPs who have stepped 
forward to do the work and they are paying not only for the 
studies and the cleanup, but they pay the state and federal 
government oversight costs.
    So in situations like that around the country, I think we 
should look at leveraging state resources to bring more 
expertise to the table and help move these projects forward 
quicker.
    I think the other issue, and Dr. Porter touched on this a 
bit, I think for the early actions as these Superfund sites, 
when you come to a site and you recognize that there's a 
problem and something needs to be done now, there are PRPs who 
are willing to step forward and do some early action. But 
there's also concern from the public that that quick early 
action becomes the final action. I think we need to develop, 
and the state is more than happy--I have it in my talking 
points--of sitting down and talking about ways where PRPs like 
Northwest Natural and Portland Harbor who want to step forward 
and do the work can do it, and they stepped forward and did 
early actions back in 2004 and 2005, recognizing that the ROD 
was going to take longer to get to.
    So they stepped forward and did the early action, 
recognizing that they were probably going to have come back 
later and do more work. And I think if the PRPs recognized 
that, then more PRPs will step forward and do early action 
work.
    Mr. Shimkus. If I can follow up with the PRPs--a volunteer 
will probably want to make sure that people know that they did 
some early action and get some credit for at least being 
involved early. Would you say that that would be true?
    Mr. McKenna. Yes, I would. Yes.
    Mr. Shimkus. Well, again, I think this is a very important 
hearing and a very difficult topic.
    Thank you for your answering the questions, your testimony, 
and we'll stay in contact.
    And with that, the hearing is adjourned.
    [Whereupon, at 1:10 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Mr. Chairman, for holding this hearing to give 
us a chance to look at ways to modernize the Superfund cleanup 
program.
    The Superfund program is 38 years old and some clean-up 
projects are as old as the law itself. The Portland Harbor site 
in Portland Oregon was listed on the National Priorities List 
in 2000 and the cleanup has been underway for over 15 years but 
it finally feels like we are making progress and that 
significant headway has been made recently.
    When Administrator Pruitt began his work at the EPA he came 
out of the gate by announcing that Superfund cleanup efforts 
would be restored to their rightful place at the center of the 
Agency's core mission. The fact that EPA is focused on 
prioritizing Superfund cleanups and revitalizing contaminated 
sites is great news for people who live near Superfund sites 
and just want to make sure that their communities are safe and 
for responsible parties who want to do the right thing by 
cleaning up contamination but whose efforts have been stalled 
by years of indecision. It is great news for the States in 
which the Superfund sites are located because States are 
invested--both from a decision-making and financial 
perspective--in the cleanup of these sites. It is great news 
for the American people because there is hope that we can 
finally start making real progress on getting sites 
contaminated by hazardous substances cleaned up and returned to 
productive use.
    So today we ask EPA and our stakeholder witnesses:
    <bullet> How can we continue to make progress on making the 
Superfund cleanup program more effective and efficient?
    <bullet> Is there too much process involved in cleanups? 
Can we reduce the red tape and speed up decision making?
    <bullet> Should states play a more significant role in 
implementing the Superfund cleanup program?
    <bullet> What role can Congress play in helping EPA with 
making superfund cleanups a priority--do we need to update the 
statute to get the program back on track and get these sites 
cleaned up?
    Mr. Chairman, I would like to thank Principal Deputy 
Assistant Administrator Barry Breen for appearing before the 
Committee today on behalf of the President and the EPA. We hope 
that Mr. Breen will be able to share with us more details about 
the progress being made by EPA to eliminate delays within the 
Superfund program so we that we can get started on workable, 
effective cleanups and make progress at other sites around the 
country like we have made recently at Portland Harbor.
    We are also glad to hear from our panel of stakeholders and 
experts. A hearing in this Subcommittee would not be complete 
without the voice of the States and other partners. Mr. 
Chairman, all our Members are grateful for the chance to take a 
deeper dive into these thorny cleanup issues that impact so 
many Americans. We hope that this will be just the start of the 
discussion as we look for constructive solutions on how to make 
sure that the program is able to adequately address the sites 
that still need to be cleaned up. I yield back the balance of 
my time.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
